No. _______________
IN THE

SUPREME COURT OF THE UNITED STATES
October Term 2020

DONALD GROCHOWSKI, as Administrator of the Estate of Kenneth
Grochowski, decedent; and, DONALD and ADAM GROCHOWSKI, as
next of Kin to Kenneth Grochowski,
Applicants/Petitioners,
v.
CLAYTON COUNTY, GEORGIA, through its Chair and Commissioners
in their official capacities and KEMUEL KIMBROUGH in his official
capacity;
VICTOR HILL, in his official capacity as Sheriff of Clayton County;
KEMUEL KIMBROUGH, individually and in his official capacity
as the former Sheriff of Clayton County;
GARLAND WATKINS, individually and in his official capacity
as the Chief Deputy of Clayton County,
ROBERT SOWELL, individually and in his official capacity
as a Major and the Jail Administrator of the Clayton County jail; and,
SAMUEL SMITH, individually, and in his official capacity as the
Security Section Commander of Clayton County Sheriff’s Department,
Respondents.

____________________________________

APPENDIX
________________________
Petition for Writ of Certiorari
To the Eleventh Circuit
______________

JOHN P. BATSON
1104 Milledge Road
Augusta, GA 30904
706-737-4040
jpbatson@aol.com

November 19, 2020

Attorney for Petitioners
Counsel of Record

Appendix
Panel Opinion,
Grochowski, et. al., v. Clayton County, Georgia, et. al,
11th Cir. No. 18-14567
(Order entered June 22, 2020) …………………...…........1a - 23a
District Court Order
Grochowski, et. al., v. Clayton County, Georgia, et. al.,
No. 1:14-cv-02586-TWT (N.D. Ga.)
(Order entered September 28, 2018) ………………........ 24a - 58a
District Court Order Granting Motion to Quash Subpoena
Grochowski, et. al., v. Clayton County, Georgia, et. al.,
No. 1:14-cv-02586-TWT (N.D. Ga.) ……………………...........59a - 64a
Pictures of Cell Door ……………………………………………..........……..... 65a -66a
Jail Schematic ……………………………………………………..……...............…. 67a
Plaintiff’s Brief in Support of
Motion for Summary Judgment Against the County ……..……............. 68a - 93a
Michael A. Berg Response to Edward Sweeney Report ……........……….........94a - 110a

Case: 18-14567

Date Filed: 06/22/2020

Page: 1 of 23

1a

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-14567
________________________
D.C. No. 1:14-cv-02586-TWT
DONALD GROCHOWSKI, as a representative administrator of the estate of
Kenneth Grochowski, deceased, and, as next of kin to Kenneth Grochowski, and
ADAM GROCHOWSKI, as next of kin to Kenneth Grochowski,
Plaintiffs - Appellants,
versus
CLAYTON COUNTY, GEORGIA, is sued through its chair Jeffrey E. Turner, and
Commissioners in their official capacity, and through the Sheriff Kemuel
Kimbrough, in his official capacity, individually and jointly, KEMUEL
KIMBROUGH, is sued individually, and in his official capacity for actions under
color of law as the Sheriff of Clayton County, individually and jointly, GARLAND
WATKINS, ROBERT SOWELL, and SAMUEL SMITH,
Defendants - Appellees.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
(June 22, 2020)
Before HULL, MARCUS, and EBEL,∗ Circuit Judges.
∗

The Honorable David M. Ebel, Senior United States Circuit Judge for the United
States Court of Appeals for the Tenth Circuit, sitting by designation.

Case: 18-14567

Date Filed: 06/22/2020

Page: 2 of 23

2a

EBEL, Circuit Judge:
This § 1983 action arises out of the death of pretrial detainee Kenneth
Grochowski at the hands of his cellmate, William Alexander Brooks, while
both men were detained at the Clayton County Jail (the “Jail”). Brooks and
Grochowski were both arrested on non-violent charges. Neither man had a
history of violent felonies, and neither reported any mental health issues. Both
men were classified as medium-security inmates and were assigned to the same
cell.
On August 14, 2012, Brooks and Grochowski got into a fight in their cell
over a piece of candy. Brooks beat Grochowski until he was unconscious, and
then Brooks tried to drown Grochowski in the cell’s toilet. Another inmate
reported the assault to jail staff, and when staff arrived Grochowski was
unresponsive. Grochowski was transported to a nearby medical center and was
pronounced dead the following morning.
Grochowski’s surviving adult children initiated this civil rights action
against Clayton County, Georgia (the “County”) and against four supervisors at
the Jail—former Sheriff Kemuel Kimbrough, Chief Deputy Garland Watkins,

2

Case: 18-14567

Date Filed: 06/22/2020

Page: 3 of 23

3a

Major Robert Sowell, and Samuel Smith (the “Jail Supervisors”). 1 Plaintiffs
argued that the conditions at the Jail violated Grochowski’s due process rights
under the Fourteenth Amendment, and that those conditions caused
Grochowski’s death. The Jail Supervisors and the County together moved for
summary judgment, arguing that the Jail Supervisors were entitled to qualified
immunity, and that, under Monell v. Department of Social Services of New
York, 436 U.S. 658 (1978), the County was not liable for any alleged
constitutional violation. Plaintiffs opposed that motion and moved for partial
summary judgment on their claims against the County. The district court
entered an order granting the Jail Supervisors’ and the County’s motion for
summary judgment and denying Plaintiffs’ motion for partial summary
judgment.
Plaintiffs now appeal that order, along with an earlier discovery ruling.
Exercising jurisdiction under 28 U.S.C. § 1291, we AFFIRM both rulings.
I. BACKGROUND

1

Plaintiffs also named as defendants several non-supervisory corrections officers,
along with CorrectHealth, LLC (“CorrectHealth”) and its employees. CorrectHealth is a
private entity that contracts with Clayton County to provide health care at the Jail. At the
summary judgment stage, the district court concluded that Plaintiffs had abandoned their
claims against the non-supervisory officers and the CorrectHealth employees. The court
then granted summary judgment for the entity CorrectHealth. Plaintiffs do not appeal those
rulings.

3

Case: 18-14567

Date Filed: 06/22/2020

Page: 4 of 23

4a

Plaintiffs’ claims center on the conditions at the Jail. In particular,
Plaintiffs focus on the Jail’s process for classifying and housing inmates and on
the extent to which double-celled inmates are monitored.
The Jail’s Classification Process
The Clayton County Jail employs a two-step classification process for
new inmates. First, a healthcare provider either clears the inmate for placement
in the general population or recommends another option, such as placing the
inmate in the medical infirmary or the mental health infirmary. If the
healthcare provider clears the inmate for placement in the general population, a
corrections officer then determines whether the inmate should be placed in
minimum-, medium-, or maximum-security housing. We refer to those
processes respectively as the health screening and the security screening.
The health screening follows best practices issued by the National
Commission on Correctional Healthcare. The screening consists of a face-toface interview between a healthcare provider and an inmate. During the
interview, the healthcare provider asks the inmate about his medical and mental
health history, including his use of medications, hospitalizations, head trauma
or seizures, suicidal attempts or ideations, violent behavior or victimization,
and sexual offenses. The healthcare provider then conducts a physical
assessment of the inmate, which includes assessing the inmate’s vital signs,

4

Case: 18-14567

Date Filed: 06/22/2020

Page: 5 of 23

5a

general appearance, attitude, mood, and affect. In particular, the healthcare
provider considers whether the inmate presents as evasive, defensive, guarded,
angry, anxious, frustrated, hostile, euphoric, tearful, flat, or blunted.
The healthcare provider also completes a “SAD PERSONS” suicide
screening, which generates a score based on indicators like the inmate’s sex,
age, history of depression, social support, and prior suicide attempts. A score
less than six is considered low-risk for suicide; a score greater than eight is
considered high-risk. If the results of the inmate’s health history and physical
assessment are within normal limits, the healthcare provider clears the inmate
for placement in the general population. Both Grochowski and Brooks received
SAD PERSONS scores of less than six.
The security screening, in contrast to the health screening, does not take
place in a face-to-face interview with the inmate. Rather, a corrections officer
relies on records to collect objective data about the inmate, including whether
the inmate is currently charged with a violent felony, and whether the inmate
has any prior violent felony convictions or any history of behavioral problems
at the Jail. The corrections officer then inputs that data into an Initial
Classification Form, which is a standard form that is endorsed by the National
Institute of Corrections. The Initial Classification Form operates as a decision
tree based on yes or no answers to nine questions. For example, if an inmate is

5

Case: 18-14567

Date Filed: 06/22/2020

Page: 6 of 23

6a

currently charged with a violent felony, the decision tree indicates that the
inmate should be placed in maximum-security housing. If an inmate is not
currently charged with a violent felony, has no prior violent felony convictions,
and has no escape history, the decision tree indicates that the inmate should be
placed in medium-security housing. Both Grochowksi and Brooks qualified
under the housing decision tree for placement in medium-security housing.
Inmates are housed according to their security classification. Certain
housing units are designated to house maximum-security inmates; others are
designated to house medium-security inmates. Within those housing units,
inmates are placed in particular cells based on available space.
Jail Design
The Jail has eight housing units, each with its own central control tower.
Each housing unit has six pods and each pod has 16 cells, meaning that each
housing unit has 96 cells.
Each cell has a solid door with a small window. The window measures
approximately six inches wide by two or two-and-a-half feet tall. From the
central control towers, officers have a clear view into each pod, but do not have
a clear view into each cell. Officers do have a complete view of a cell’s interior
when they look through the cell door’s window from two or three feet away.

6

Case: 18-14567

Date Filed: 06/22/2020

Page: 7 of 23

7a

The National Institute of Corrections does not suggest that a full view of
every cell from a remote surveillance booth is necessary; rather, it recommends
that remote surveillance booths “have a good view of cell fronts, dayrooms, and
mezzanine walkways.” The American Corrections Association takes the same
position. The National Institute of Corrections, in fact, recommends against
large windows on cell doors, as they raise privacy concerns and can cause
conflict between inmates who are intentionally housed separately.
The Jail was designed to house two inmates per cell. It is standard
practice—nationally and in the state of Georgia—to double-cell mediumsecurity inmates in the general population.
Each cell is equipped with an emergency call button. There are no video
cameras inside the cells.
Jail Staffing
Each housing unit is staffed with two officers: one guard in the control
tower and one on the floor. That staffing plan is consistent with
recommendations from the Georgia Sheriffs’ Association. Officers conduct
physical cell checks every hour and conduct a headcount three times per day at
6 a.m., 6 p.m., and midnight.

7

Case: 18-14567

Date Filed: 06/22/2020

Page: 8 of 23

8a

Budget Proposals and Staffing Requests
One of the Sheriff’s duties is to present the County with budget
proposals, and the County, in turn, is responsible for funding the Sheriff’s
operations. Former Sheriff Kemuel Kimbrough (“Sheriff Kimbrough”) was
elected Sheriff in 2008 and served a term beginning January 1, 2009 and ending
December 31, 2012, which included the time of the incident resulting in
Grochowski’s death. In his budget proposals, Sheriff Kimbrough always
requested additional staff, so as to reduce planned overtime and therefore
increase safety and efficiency in the Jail.
A former sheriff, Sheriff Stanley Tuggle (“Sheriff Tuggle”), served as
sheriff during an earlier time when the Jail was being designed and constructed.
Sheriff Tuggle was elected in 1996, took office in 1997, and served until 2005.
Sheriff Tuggle oversaw the transition from a previous facility to the Jail after
the Jail’s construction in 1999. In his 2002 budget proposal, Sheriff Tuggle
informed the County that one housing unit was closed due to a staffing
shortage. Still, Sheriff Tuggle testified in his deposition that the Jail had
enough staff to handle the inmate population at that time, and that it did not
have to resort to triple-celling inmates. In August 2012, when Grochowski was
killed, one of the Jail’s eight housing units was closed. There is no evidence in

8

Case: 18-14567

Date Filed: 06/22/2020

Page: 9 of 23

9a

the record to suggest that either Grochowski or Brooks would have been singlecelled even if all housing units at the Jail had been open.
Arrest and Intake of Brooks
Twenty-year-old William Alexander Brooks was arrested on July 31,
2012 and charged with theft by receiving stolen property, giving a false name
to an officer, driving on a suspended license, and not wearing a seat belt.
Brooks was booked into the Jail on August 1, 2012. That day, Brooks
underwent a health screening conducted by former defendant, CorrectHealth,
LLC (“CorrectHealth”)—a private entity that contracts with Clayton County to
provide health care at the Jail. During the health screening, Brooks reported no
past or current physical or mental health issues and denied any history of
violent behavior. CorrectHealth employees noted that Brooks’s vital signs,
appearance, attitude, and affect were within normal limits. Brooks scored a “1”
on the SAD PERSONS suicide screening—the lowest possible score for a male
inmate. Brooks was therefore cleared for placement in the general population.
On August 2, 2012, Officer Lashanda Baker performed Brooks’s security
screening. Brooks’s criminal history revealed no violent felony convictions, no
escape history, and no past or present institutional behavioral problems.
Officer Baker therefore classified Brooks as a medium-security inmate.

9

Case: 18-14567

Date Filed: 06/22/2020

Page: 10 of 23

10a

Plaintiffs point out, however, that Brooks had been convicted in 2009 for
misdemeanor fighting, which was not considered under the security screening
protocol.
Arrest and Intake of Grochowski
Fifty-seven-year-old Kenneth Grochowski was arrested on August 8,
2012 and charged with failure to appear on a DUI charge in Illinois. The same
day, Grochowski was booked into the Jail and underwent a health screening
conducted by CorrectHealth. CorrectHealth employees cleared Grochowski for
housing in the general population. The next day, on August 9, 2012, Officer
Baker performed Grochowski’s security screening and classified Grochowski
as a medium-security inmate.
The Fight Between Brooks and Grochowski
Brooks and Grochowski were both placed in Housing Unit 6. Brooks
was initially placed in cell 209B, and Grochowski was placed in cell 210B. On
August 11, 2012, Officer Paul McKibbins transferred Brooks into cell 210B
with Grochowski. Officer McKibbins testified that he had never observed
Brooks displaying erratic behavior or acting violently. He knew only that both
Brooks and Grochowski had been classified as medium-security inmates.
Officer McKibbins placed Brooks in cell 210B with Grochowski because “[i]t
just happened [that] . . . at that particular time that space was available.”

10

Case: 18-14567

Date Filed: 06/22/2020

Page: 11 of 23

11a

On August 14, 2012, at around 9:05 p.m., Brooks and Grochowski got
into an argument over a piece of candy. According to Brooks, Grochowski
took a swing at Brooks, and Brooks blocked the swing and hit Grochowski in
the throat. Brooks continued to beat Grochowski and then tried to drown
Grochowski by placing his head into the cell’s toilet. Another inmate alerted
jail staff of the assault, and Grochowski was found unresponsive in his cell.
Grochowski was transported to Southern Regional Medical Center and was
pronounced dead the morning of August 15, 2012.
Staffing and Cell Checks on August 14, 2012
On August 14, 2012—the night Grochowski was killed—officers
performed hourly cell checks and routine headcounts. That night there were 21
officers, four supervisors, two deputies, and three clerks on shift in the Jail. In
Housing Unit 6, one officer was assigned to the control tower and one officer
was assigned to the floor.
II.

DISCUSSION

A. The Summary Judgment Ruling
1.

Standard of Review

“We review a district court’s grant of summary judgment de novo, considering
the facts and drawing all reasonable inferences in the light most favorable to
the non-moving party.” Melton v. Abston, 841 F.3d 1207, 1219 (11th Cir.

11

Case: 18-14567

Date Filed: 06/22/2020

Page: 12 of 23

12a

2016). “Summary judgment is appropriate ‘if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment
as a matter of law.’” Id. (quoting Fed. R. Civ. P. 56(a)).
2.

Applicable Law

Plaintiffs brought suit under 42 U.S.C. § 1983 against the Jail
Supervisors in their individual capacities 2 and against the County. Plaintiffs’
claims arise under the Fourteenth Amendment’s Due Process Clause. Hamm v.
DeKalb Cty., 774 F.2d 1567, 1572 (11th Cir. 1985) (citing Bell v. Wolfish, 441
U.S. 520, 535 n.16 (1979)). When analyzing claims under the Due Process
Clause, the Eleventh Circuit often refers to precedent under the Eighth
Amendment’s Cruel and Unusual Punishment Clause. 3 Keith v. DeKalb Cty.,
749 F.3d 1034, 1044 n.35 (11th Cir. 2014) (quoting City of Revere v. Mass.
Gen. Hosp., 463 U.S. 239, 244 (1983)); see also Cottrell v. Caldwell, 85 F.3d
1480, 1490 (11th Cir. 1996). The Eleventh Circuit has thus recognized that
2

Plaintiffs also sued the Jail Supervisors in their official capacities. All but one of
the official capacity claims were dismissed, and the district court granted summary
judgment for the Jail Supervisors on the remaining official capacity claims. Plaintiffs do
not challenge those rulings on appeal.
3

Because Grochowski was a pretrial detainee and had not been convicted, he was not
susceptible to any criminal punishment as such. However, he could be confined pending
trial, and that confinement necessarily required restrictions on him in a jail setting. So long
as those restrictions have a “legitimate governmental objective” and are not imposed for the
purpose of punishment, the Fourteenth Amendment is not violated. Hamm, 774 F.2d at
1573 (quoting Bell, 441 U.S. at 539). In this case, Plaintiffs have made no adequate
argument that the restrictions upon Grochowski were unrelated to a legitimate governmental
objective, so we do not address that issue further.

12

Case: 18-14567

Date Filed: 06/22/2020

Page: 13 of 23

13a

“[a] prison official’s deliberate indifference to a known, substantial risk of
serious harm to an inmate violates the Fourteenth Amendment.” Keith, 749
F.3d at 1047 (alteration incorporated) (quoting Marsh v. Butler Cty., 268 F.3d
1014, 1028 (11th Cir. 2001) (en banc), abrogated on other grounds by Bell Atl.
Corp. v. Twombly, 550 U.S. 544 (2007)). “Whether a risk of harm is
substantial is an objective inquiry.” Id. The “deliberate indifference”
component is a subjective inquiry that requires a plaintiff to show that the
defendants “acted with a sufficiently culpable state of mind.” 4 Chandler v.
Crosby, 379 F.3d 1278, 1289 (11th Cir. 2004) (quoting Hudson v. McMillian,
503 U.S. 1, 8 (1992)).
3.

Claims against the Jail Supervisors

As to the Jail Supervisors, Plaintiffs identify two conditions, which, they
argue pose a substantial risk of serious harm to inmates at the Jail. First, they
argue that the Jail’s classification process does not adequately identify inmates
with violent or assaultive tendencies, which leads to nonviolent inmates being
double-celled with violent inmates. Second, they argue that the Jail’s practice

4

Plaintiffs urge us to dispense with the subjective component, as the Supreme Court
did in Kingsley v. Hendrickson, 576 U.S. 389 (2015) for excessive force claims arising
under the Fourteenth Amendment. We decline to apply Kingsley because Grochowski’s
death occurred in 2012 and Kingsley was decided in 2015. We are not aware of any court
that has ruled that Kingsley has retroactive effect. We therefore do not consider whether
Kingsley would otherwise be applicable.

13

Case: 18-14567

Date Filed: 06/22/2020

Page: 14 of 23

14a

of performing hourly rounds is insufficient to ensure the safety of inmates
while they are inside their cells. 5
The Jail Supervisors argue that they are entitled to qualified immunity on
these claims. In order to show that an officer is entitled to qualified immunity,
the officer must show that he or she was acting within the scope of his or her
discretionary authority at the time of the alleged wrongful acts. Lee v. Ferraro,
284 F.3d 1188, 1194 (11th Cir. 2002). There is no dispute in this case that the
Jail Supervisors were acting within the scope of their discretionary authority at
all relevant times. The burden therefore shifts to the Plaintiffs, who must show,
first, that the officers “violated a constitutionally protected right,” and second,
“that the right was clearly established at the time of the misconduct.” Melton,
841 F.3d at 1221. We may address those elements in any order. Id. (citing
Pearson v. Callahan, 555 U.S. 223, 236 (2009)). Here, we begin and end our

5

Plaintiffs also raise arguments about the Jail’s physical design and its funding
levels within their claims against the Jail Supervisors. In Georgia, the Office of the Sheriff
(which, in this case, includes the Jail Supervisors) is responsible for the administration and
daily operations of the Jail. Purcell ex rel. Estate of Morgan v. Toombs Cty., 400 F.3d
1313, 1325 (11th Cir. 2005). The design of the Jail and the Jail’s funding levels, however,
are not matters of Jail administration. The record shows that the County worked with an
architectural firm to design and construct the Jail in 1999; the Jail Supervisors were not
involved in the design process. The record also shows that the Sheriff submits budget
proposals to the County, but the County is ultimately responsible for making funding
decisions. We therefore restrict our consideration of the Jail’s design and its funding to our
discussion of the County’s liability below.

14

Case: 18-14567

Date Filed: 06/22/2020

Page: 15 of 23

15a

analysis by concluding that Plaintiffs have failed to show that the Jail
Supervisors violated a constitutionally protected right. 6
a. Classification Process
Plaintiffs argue that the Jail’s classification process poses a substantial
risk of serious harm because corrections officers do not perform the security
screening in face-to-face interviews with inmates and because the Initial
Classification Form does not account for violent misdemeanors. As a result,
they argue, violent inmates can be double-celled with non-violent inmates,
which can lead to in-cell assaults. Plaintiffs argue that if the security screening
had been conducted in person and if it had accounted for violent misdemeanors,
the Jail Supervisors would have identified Brooks as being potentially violent,
particularly in light of his 2009 conviction for misdemeanor fighting. Plaintiffs
have failed to show, however, that the Constitution requires in-person security
screenings or consideration of violent misdemeanors.

6

We assume that the Jail Supervisors are officers with some supervisory authority at
the Jail. Had Plaintiffs shown that Grochowski’s constitutional rights were violated, which
they have not done, they would also have needed to show that the Jail Supervisors either
“personally participate[d] in the alleged constitutional violation or [that] there is a causal
connection between actions of the [Jail Supervisors] and the alleged constitutional
deprivation.” Brown v. Crawford, 906 F.2d 667, 671 (11th Cir. 1990). Because we
conclude that no constitutional violation occurred, we do not reach that issue. See Beshers
v. Harrison, 495 F.3d 1260, 1264 n.7 (11th Cir. 2007) (“We need not address the
Appellant’s claims of municipal or supervisory liability since we conclude no constitutional
violation occurred.”).

15

Case: 18-14567

Date Filed: 06/22/2020

Page: 16 of 23

16a

Plaintiffs cite case law for the proposition that jail classification systems
must consider an inmate’s capacity for violence. See Gates v. Collier, 501 F.2d
1291, 1308–09 (5th Cir. 1974). 7 However, the Jail’s classification process does
consider an inmate’s capacity for violence. The classification process begins
with a health screening, which is conducted according to best practices issued
by the National Commission on Correctional Healthcare. The healthcare
screening takes place in a face-to-face interview, during which a healthcare
provider asks the inmate if he has any history of violent behavior or
victimization. The healthcare provider also assesses the inmate’s appearance,
attitude, mood, and affect. Those measures assist the healthcare provider in
determining, in the first instance, whether it is appropriate to place inmates in
the general population.
A corrections officer then conducts a security screening based on
objective criteria, such as the inmate’s current charges, history of violent felony
convictions, and any disciplinary records from previous detentions at the Jail.
Those objective criteria are collected on an Initial Classification Form, which is
endorsed by the National Institute of Corrections. The Initial Classification
Form functions as a decision tree based on those objective criteria, and it

7

In Bonner v. City of Prichard, 661 F.2d 1206 (11th Cir. 1981) (en banc), we
adopted as binding precedent all decisions of the former Fifth Circuit handed down before
October 1, 1981. Id. at 1209.

16

Case: 18-14567

Date Filed: 06/22/2020

Page: 17 of 23

17a

adequately considers an inmate’s capacity for violence in determining whether
the inmate should be placed in minimum-, medium-, or maximum-security
housing. Plaintiffs have simply failed to show that the Jail’s classification
system does not adequately consider an inmate’s capacity for violence.
b. Hourly Rounds
Plaintiffs next argue that the Jail’s practice of performing hourly rounds
is insufficient to supervise double-celled inmates and therefore poses a
substantial risk of serious harm to inmates at the Jail. Plaintiffs have failed to
show that the Constitution requires jail officials to conduct rounds more
frequently than once per hour.
To the contrary, the Jail Supervisors cite cases to demonstrate that hourly
rounds are constitutionally adequate. In Cagle v. Sutherland, a jail official
violated a consent decree from previous litigation that required hourly cell
checks. 334 F.3d 980, 985 (11th Cir. 2003). That official let one hour and
forty minutes elapse between cell checks and during that time an inmate died.
Id. at 989. The court observed that the consent decree “did not establish a
constitutional right to hourly jail checks.” Id. Cagle, then, suggests that even
hourly cell checks are not constitutionally required. See also Popham v. City of
Talladega, 908 F.2d 1561, 1565 (11th Cir. 1990) (holding that jail officials
were entitled to qualified immunity because the plaintiff “cite[d] no cases for

17

Case: 18-14567

Date Filed: 06/22/2020

Page: 18 of 23

18a

the proposition that deliberate indifference is demonstrated if prisoners are not
seen by jailers at all times”). We recognize that Cagle and Popham addressed
the subjective component of deliberate indifference rather than the objective
component of a substantial risk of serious harm. Still, we think these cases
support our conclusion here that the Jail’s practice of conducting hourly rounds
is constitutionally adequate.
Plaintiffs have failed to show that either the Jail’s classification process
or its practice of hourly rounds pose a substantial risk of serious harm to
inmates at the Jail. Therefore, Plaintiffs have failed to show that those
conditions violated Grochowski’s rights under the Fourteenth Amendment. 8
Absent any constitutional violation, the Jail Supervisors are entitled to
summary judgment on the basis of qualified immunity. 9
4.

Claims against the County

As to the County, Plaintiffs again identify two conditions which, they
argue, pose a substantial risk of serious harm to inmates at the Jail. First, they
argue that the design of the Jail makes it difficult to monitor inmates in cells,

8

Because Plaintiffs failed to show that the challenged conditions pose a substantial
risk of serious harm, we need not also consider whether the Jail Supervisors acted with
deliberate indifference to a substantial risk of serious harm.
9

Absent any violated right, we need not support our qualified immunity conclusion
by also considering whether “the right was clearly established at the time of the
misconduct.” Melton, 841 F.3d at 1221.

18

Case: 18-14567

Date Filed: 06/22/2020

Page: 19 of 23

19a

meaning that in-cell assaults may go undetected. Second, they argue that the
Jail is underfunded and understaffed, which makes it impractical for the
officers to conduct rounds more frequently than once per hour. A county is
liable under § 1983 if one of its “customs, practices, or policies” was the
“moving force” behind a constitutional injury. Barnett v. MacArthur, 956 F.3d
1291, 1296 (11th Cir. 2020). To prevail on such a claim, “a plaintiff must
show: (1) that his constitutional rights were violated; (2) that the [County] had
a custom or policy that constituted deliberate indifference to that constitutional
right; and (3) that the policy or custom caused the violation.” McDowell v.
Brown, 392 F.3d 1283, 1289 (11th Cir. 2004) (citing City of Canton v. Harris,
489 U.S. 378, 388 (1989)). Again, Plaintiffs have failed to show that
Grochowski’s “constitutional rights were violated.”
a. Jail Design
Plaintiffs argue that the Jail’s design poses a substantial risk of harm to
inmates at the Jail because corrections officers do not have a clear view into
each cell from the central control towers. Plaintiffs note that each cell has a
solid door with a small window, which is approximately six inches wide by two
or two-and-a-half feet tall. From the central control towers, officers cannot
clearly see the interior of a cell through the small window. This, Plaintiffs
argue, puts inmates at a substantial risk of undetected in-cell assaults.

19

Case: 18-14567

Date Filed: 06/22/2020

Page: 20 of 23

20a

Plaintiffs’ position amounts to an argument that the constitution requires
continuous observation of double-celled inmates. As described above, our
precedent undermines that suggestion. See Cagle, 334 F.3d at 989; Popham,
908 F.2d at 1565. What’s more, the Jail’s design is consistent with national
standards. Both the National Institute of Corrections and the American
Corrections Association recommend only that officers in remote surveillance
booths, like the control towers here, have a good view of cell fronts and
walkways. Neither organization recommends that jails install large windows
on cell doors to facilitate remote surveillance of a cell’s interior. To the
contrary, the National Institute of Corrections notes that large windows on cell
doors can raise problems such as privacy concerns and increased conflict
between inmates who are intentionally housed separately.
We also note that each cell is equipped with an emergency call button,
which enables inmates to send an emergency signal to officers in the control
tower. This would seem to mitigate risk associated with the small windows on
cell doors. And, as discussed above, the Jail accounts for an inmate’s capacity
for violence when making housing unit assignments. That, too, mitigates the
risk of undetected in-cell assaults. Again, Plaintiffs have simply failed to show
that the Jail’s design is constitutionally deficient.
b. Funding and Staffing

20

Case: 18-14567

Date Filed: 06/22/2020

Page: 21 of 23

21a

Plaintiffs next argue that the County failed to fund the Jail adequately,
leaving the Jail understaffed. Plaintiffs argue that the Jail’s staffing levels
accommodated only hourly rounds and caused the Jail to close one of its
housing units, which remained closed at the time of Grochowski’s death.
Plaintiffs argue that these conditions posed a substantial risk of serious harm to
inmates at the Jail. Again, Plaintiffs have failed to show that the Jail’s funding
and staffing levels fall below constitutional minima.
As described above, the constitution does not require continuous
observation of double-celled inmates. The record shows that the Jail had
sufficient staff to perform regular, hourly rounds. Staffing levels were also
sufficient to comply with the recommendation from the Georgia Sheriffs’
Association that two guards—one in the control tower and one on the floor—
monitor each housing unit.
The record also shows that, notwithstanding the closure of one of the
Jail’s housing units, the Jail was able to house inmates according to its design,
with two inmates per cell. There is no evidence that the Jail had to resort to
triple-celling inmates as a result of the housing unit closure. Nor is there any
evidence that, had the additional housing unit been open at the time of
Grochowski’s death, the Jail would have opted to single-cell any inmates that
ordinarily would have been double-celled. And, of course, even had some

21

Case: 18-14567

Date Filed: 06/22/2020

Page: 22 of 23

22a

inmates been single-celled, there is no evidence that Brooks or Grochowski
would have been among those inmates.
The record does show that both Sheriff Kimbrough and Sheriff Tuggle
requested additional funding from the County in order to increase staffing and
thereby increase efficiency and safety at the Jail. But Plaintiffs have failed to
show that the existing funding and staffing levels posed a substantial risk of
serious harm to inmates at the Jail.
Again, Plaintiffs have failed to show that either the Jail’s design or its
funding and staffing levels violated Grochowski’s Fourteenth Amendment
rights. Therefore, the County is entitled to summary judgment. 10
B. The Discovery Ruling
In the course of discovery on Plaintiffs’ claims against the County,
Plaintiffs sought to depose non-party Crandle Bray, former Chairman of the
Clayton County Board of Commissioners, regarding his decision-making
process with respect to the design and funding of the Jail. On November 15,
2017, the County filed a Motion for Protective Order, or in the alternative,

10

Absent any constitutional violation, we need not consider whether the County had
any “custom or policy that constituted deliberate indifference” to Grochowski’s
constitutional rights, or whether “the policy or custom caused the violation.” See
McDowell, 392 F.3d at 1289.

22

Case: 18-14567

Date Filed: 06/22/2020

Page: 23 of 23

23a

Motion to Quash the Subpoena issued to Bray. After conducting a hearing, the
district court granted that motion. Plaintiffs challenge that ruling on appeal.
“[W]e will not overturn discovery rulings ‘unless it is shown that the
District Court’s ruling resulted in substantial harm to the appellant’s case.’”
Iraola & CIA, S.A. v. Kimberly-Clark Corp., 325 F.3d 1274, 1286 (11th Cir.
2003) (quoting Carmical v. Bell Helicopter Textron, Inc., 117 F.3d 490, 493
(11th Cir. 1997)). Plaintiffs have failed to show that the district court’s ruling
caused substantial harm to their case. As described above, Plaintiffs failed to
show that the Jail’s design or its funding and staffing levels were
constitutionally deficient. Therefore, it would not have aided Plaintiffs’ case to
obtain information about the County’s decision-making process with respect to
the Jail’s design or funding. We therefore affirm the district court’s order
granting the County’s Motion for Protective Order.
III.

CONCLUSION

The district court’s order granting the Jail Supervisors’ and the County’s
Motion for Summary Judgment is AFFIRMED. The district court’s order
granting the County’s Motion for Protective Order is AFFIRMED.

23

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 1 of 35

24a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONALD GROCHOWSKI
as a representative administrator of
the estate of Kenneth Grochowski,
deceased, et al.,
Plaintiffs,
v.

CIVIL ACTION FILE
NO. 1:14-CV-2586-TWT

CLAYTON COUNTY, GEORGIA
is sued through its Chair Jeffrey E.
Turner, and Commissioners in their
official capacity, and through the
Sheriff Kemuel Kimbrough, in his
official capacity, individually and
jointly, et al.,
Defendants.
OPINION AND ORDER
This is a civil rights action. It is before the Court on the Defendants
CorrectHealth, LLC, James Rose and Walter Smith’s Motion for Summary
Judgment [Doc. 137]; the Defendants Clayton County, Kemuel Kimbrough,
Garland Watkins, Robert Sowell, and Samuel Smith’s Motion for Summary
Judgment [Doc. 138]; and the Plaintiffs’ Motion for Partial Summary Judgment
[Doc. 139]. For the reasons set forth below, (1) the Defendants CorrectHealth,
LLC, James Rose and Walter Smith’s Motion for Summary Judgment [Doc. 137]
is GRANTED; (2) the Defendants Clayton County, Kemuel Kimbrough, Garland

T:\ORDERS\14\Grochowski\msjtwt.wpd

24a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 2 of 35

25a
Watkins, Robert Sowell, and Samuel Smith’s Motion for Summary Judgment
[Doc. 138] is GRANTED; and (3) the Plaintiffs’ Motion for Partial Summary
Judgment [Doc. 139] is DENIED.
I. Background
This case arises from the death of the Plaintiffs’ decedent, Kenneth
Grochowski, at the hands of William Alexander Brooks while both men were
detained at the Clayton County Jail. Twenty year old William Alexander Brooks
was arrested on July 31, 2012.1 He was charged with misdemeanor offenses of
theft by receiving stolen property, giving a false name to an officer, driving on
a suspended license, and not wearing a seatbelt.2 Brooks was booked into the
Jail on August 1, 2012.3 Brooks underwent an initial medical assessment
conducted by the Defendant CorrectHealth’s employees.4 CorrectHealth is a
private entity that contracts with Clayton County to provide health care to
inmates and pre-trial detainees held at the Jail.5 During the assessment, Brooks
self-reported no past or current physical or mental health issues and denied any

1

County and Supervisory Defendants’ Statement of Material Facts
¶ 1 [Doc 138-2].
2

Id.

3

Id. ¶ 2.

4

Id. This included physical and mental assessments by the trained

nursing staff and review by a physician assistant.
5

Compl. ¶ 90 [Doc. 1].

T:\ORDERS\14\Grochowski\msjtwt.wpd

-2-

25a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 3 of 35

26a
history of violent behavior.6 The CorrectHealth employees conducting the
assessment concluded that Brooks’ vital signs, general appearance, attitude, and
affect were all within normal limits.7 Therefore, Brooks was cleared for housing
within the general population.8
The classification officer on duty at the time, Officer Lashanda Baker,
completed Brooks’ Classification Form.9 Officer Baker reviewed Brooks’ criminal
history and determined that Brooks had no violent felony convictions, no escape
history, and no past or present institutional or behavioral problems.10 Therefore,
Officer Baker classified Brooks as a medium security inmate.11 There is no
evidence that any of the individual Defendants were aware (as alleged in the
Complaint) of any erratic behavior by Brooks prior to August 14, 2012.
Fifty-seven year old Kenneth Grochowski was arrested on August 8, 2012,
and charged with failure to appear on a DUI charge in Illinois.12 He was booked

6

CorrectHealth’s Statement of Material Facts ¶ 9 [Doc. 137-4].

7

Id. ¶¶ 11-12.

8

Id. ¶ 17.

9

County and Supervisory Defendants’ Statement of Material Facts

10

Id. The criminal history and current charges of an inmate are not

¶ 4.

provided to the medical staff by the jail security staff.
11

Id.

12

Id. ¶ 5.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-3-

26a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 4 of 35

27a
into the Jail the same day.13 Grochowski underwent a medical assessment and
was cleared for housing within the general population.14 Officer Baker completed
his Classification Form and classified him as a medium security inmate.15
Brooks and Grochowski were housed in the same cell beginning August
11, 2012.16 On August 14, 2012, at or around 9:05 pm, Brooks began beating
Grochowski until he was unconscious, and forcefully placed Grochowski’s head
in the toilet in an attempt to drown him.17 Another inmate alerted jail staff of
the assault, and Grochowski was found unresponsive in his cell.18 Grochowski
was transported to Southern Regional Medical Center where he was pronounced
dead the morning of August 15, 2012.19
The Jail was designed to house two inmates per cell.20 There are
ninety-six cells and a central control tower in each of the Jail's eight Housing

¶ 25.

13

Id. ¶ 6.

14

Id. ¶ 7.

15

Id. ¶ 8.

16

Id. ¶ 10.

17

Id. ¶ 12.

18

Id. ¶¶ 13-15.

19

Id. ¶ 18.

20

County and Supervisory Defendants' Statement of Material Facts

T:\ORDERS\14\Grochowski\msjtwt.wpd

-4-

27a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 5 of 35

28a
Units.21 The cells have a solid door with a small window.22 Two corrections
officers are assigned to each Housing Unit per shift, one in the control tower and
one on the floor.23 The parties dispute whether the officer stationed in the
control tower can see into the cells.24 Each cell, including the one that housed
Brooks and Grochowski, is equipped with an emergency call button.25 It is the
policy of the Jail to conduct physical cell checks every hour and headcounts
three times a day.26 The corrections officers on duty followed these policies on
the night of the assault.27

21

Id. ¶¶ 23-24.

22

Id. ¶ 27.

23

Id. ¶ 37.

24

The Defendants claim that the officer in the control tower has a
“clear view” of some of the cell's interior but cannot see the entire cell. Id. ¶ 28.
The Plaintiffs claim that the officer in the control tower cannot see into the cell
at all. Pls.’ Resp. to County and Supervisory Defendants' Statement of Material
Facts ¶ 28 [Doc. 171].
25

Pls.’ Resp. to County and Supervisory Defendants' Statement of
Material Facts ¶ 32.
26

County and Supervisory Defendants' Statement of Material Facts
¶ 39. The Plaintiffs dispute that this policy is always followed, see Pls.’ Resp.
to the County and Supervisory Defendants' Statement of Material Facts ¶ 39,
but do not dispute that the policy was followed on the night of the assault, see
id. ¶ 19.
27

¶ 19.

County and Supervisory Defendants' Statement of Material Facts

T:\ORDERS\14\Grochowski\msjtwt.wpd

-5-

28a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 6 of 35

29a
The Plaintiffs, the decedent’s adult children, filed this action on August
11, 2014.28 The Plaintiffs named as defendants the County; CorrectHealth and
various employees; the Sheriff; and various supervisors and corrections officers
employed by the Sheriff’s Office.29 At this stage in the litigation, the Plaintiffs
have abandoned all claims against non-supervisory jail personnel, as well as
those against CorrectHealth’s employees. Therefore, the remaining Defendants
are the County, CorrectHealth, the Sheriff, and three jail supervisors who, it is
alleged, are responsible for the day-to-day administration of the Jail. The Sheriff
and the jail supervisors are collectively referred to as the “Supervisory
Defendants” in this Order. These Defendants and the Plaintiffs move for
summary judgment.
II. Summary Judgment Standard
Summary judgment is appropriate only when the pleadings, depositions,
and affidavits submitted by the parties show no genuine issue of material fact
exists and that the movant is entitled to judgment as a matter of law.30 The
court should view the evidence and any inferences that may be drawn in the
light most favorable to the nonmovant.31 The party seeking summary judgment
must first identify grounds that show the absence of a genuine issue of material
28

Compl. ¶ 4.

29

Id.

30

Fed R. Civ. P. 56(c).

31

Adickes v. S.H. Kress & Co., 398 U.S. 144, 158-59 (1970).

T:\ORDERS\14\Grochowski\msjtwt.wpd

-6-

29a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 7 of 35

30a
fact.32 The burden then shifts to the nonmovant, who must go beyond the
pleadings and present affirmative evidence to show that a genuine issue of
material fact exists.33
III. Discussion
This Order will review each Defendant’s potential liability in turn,
beginning with CorrectHealth.
A. CorrectHealth
In their Complaint, the Plaintiffs allege that the “acts, omissions, policies,
and customs” of CorrectHealth and its employees resulted in violations of the
decedent’s Eighth and Fourteenth Amendment rights, including “the right to be
free of cruel and unusual punishment, the right to be protected, and the right
to medical care while incarcerated.”34 The Plaintiffs appended a state law
negligence claim to their § 1983 claim, alleging that CorrectHealth’s employees
breached their duty to the decedent by failing to perceive or mitigate the danger
that Brooks posed to other detainees.35 The Plaintiffs have abandoned all claims
against CorrectHealth employees, and this Court holds that the remaining

32

Celotex Corp. V. Catrett, 477 U.S. 317, 323-24 (1986).

33

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 257 (1986).

34

Compl. ¶ 126.

35

First Am. Compl. ¶ 9 [Doc. 4].

T:\ORDERS\14\Grochowski\msjtwt.wpd

-7-

30a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 8 of 35

31a
CorrectHealth employees should be dismissed from this action.36 This Court is
called upon to determine whether summary judgment is appropriate as to the
Plaintiffs’ claims against CorrectHealth as a private entity.
1. § 1983 Claim
CorrectHealth is amenable to suit under § 1983 because it has contracted
to perform a function “traditionally within the prerogative of” the County,
namely the provision of medical care to incarcerated persons.37 Therefore, this
Court will treat CorrectHealth as the “functional equivalent” of a municipality
for the purposes of determining its liability under § 1983. There is no respondeat
superior liability for a municipality under section 1983. A municipality can be
liable under § 1983 only when execution of its official “policy or custom” is the
“moving force” behind a constitutional violation.38 A municipality is liable only
for policies promulgated or ratified by officials with “final policymaking
authority.”39 A municipality cannot be liable for the acts of officials that it has
no authority to control.40

36

Consent Stipulation for Dismissal [Doc. 28]; Pls.’ Reply Br. to
CorrectHealth’s Mot. for Summ. J., at 1 n.1 [Doc. 176].
37

Buckner v. Toro, 116 F.3d 450, 452 (11th Cir. 1997).

38

Monell v. Dep't of Soc. Servs. of City of New York, 436 U.S. 658,

694 (1978).
39

Hill v. Clifton, 74 F.3d 1150, 1152 (11th Cir. 1996).

Grech v. Clayton Cty., 335 F.3d 1326, 1331 (11th Cir. 2003) (citing
Turquitt v. Jefferson County, 137 F.3d 1285 (11th Cir. 1998)).
40

T:\ORDERS\14\Grochowski\msjtwt.wpd

-8-

31a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 9 of 35

32a
CorrectHealth contends that none of its policies or customs were the
moving force behind the constitutional violations alleged by the Plaintiffs.
CorrectHealth asserts that the physical and mental health assessment
performed on Brooks by its employees met the relevant standard of care and
that the test results indicated no need for an immediate mental health
referral.41 CorrectHealth further asserts that neither CorrectHealth nor its
employees have any input in detainees’ security classifications or where they are
housed in the facility.42 The Plaintiffs do not dispute the truth of any of
CorrectHealth’s proffered facts. Rather, they contend that the quality of care
provided to Brooks is immaterial because Brooks’ initial assessment was
“inadequate for purposes of classification and assessment of assaultive
tendencies to determine suitability for double-celling.”43 It appears from
Plaintiffs’ briefing that the “policy or custom” complained of is the double-celling
of detainees without adequate safeguards to prevent inmate-on-inmate violence.
The Plaintiffs’ theory of liability fails as a matter of law because
CorrectHealth plays no role in setting classification policies for the Jail and
lacks the authority to do so. The parties agree that neither CorrectHealth nor

41

CorrectHealth’s Mot. For Summ. J., at 10 [Doc. 137-1].

42

CorrectHealth’s Reply Br. in Supp. of Mot. For Summ. J., at 2 [Doc

181].
43

Pls.’ Resp. to CorrectHealth’s Statement of Material Facts in Supp.
of Mot. For Summ. J., at 11-15 [Doc. 176-1].
T:\ORDERS\14\Grochowski\msjtwt.wpd

-9-

32a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 10 of 35

33a
its employees have any input in classification or housing decisions.44 The Sheriff
and his subordinates are solely responsible for setting classification policy. In
his capacity as jail administrator, the Sheriff acts as an arm of the state and is
not subject to the control of the County or to entities operating on Countydelegated authority.45 Because CorrectHealth exercises no control over the policy
maker responsible for setting classification policy, CorrectHealth cannot be
liable under § 1983.46
The Plaintiffs seek to establish CorrectHealth’s responsibility to assess
detainees for security risks by pointing to language in the County’s 2008
Request for Proposal.47 That document suggests that the health care provider
will have “primary, but not exclusive responsibility for all the identification, care
and treatment of inmates who are ‘security risks’ or who present a danger to

44

CorrectHealth’s Reply Br. in Supp. of Mot. for Summ. J., at 2 [Doc
181]; accord Pls.’ Resp. Br. to CorrectHealth’s Mot. for Summ. J., at 5 n.8 [Doc.
176] (“CorrectHealth personnel did not provide ‘any input’ for the Sheriff
employee’s decisions as to ‘medium or maximum security and room assignment,’
which was ‘completely up to’ the Sheriff’s employees.”) (citing Pedersen Decl. ¶
31 [Doc. 137-2]).

Purcell ex rel. Estate of Morgan v. Toombs Cty., Ga, 400 F.3d 1313,
1325 (11th Cir. 2005) (citing Manders v. Lee, 338 F.3d 1304, 1315 (11th Cir.
45

2003)).

46

See Grech, 335 F.3d at 1343 (holding that local government entities

cannot be liable for the acts of the Sheriff over which it has no control).
47

See Doc. 173-2.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-10-

33a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 11 of 35

34a
themselves and others.”48 But whether or not the County actually sought to
assign CorrectHealth primary responsibility to conduct risk assessments is
beside the point. Final decisions on classification and housing decisions rest
with the Sheriff as a matter of law.49 Because the County itself has no authority
to control the Sheriff in his capacity as jail administrator, it follows that the
County could not delegate such authority to a private entity by contract. The
contractual language at issue cannot establish that officials subject to
CorrectHealth’s control had, or should have had, the authority to set
classification and housing policies in the Jail. Therefore, CorrectHealth’s
contract with the County cannot sustain a finding of liability under § 1983.
2. State Law Negligence Claim
CorrectHealth argues that it is not liable for negligence under Georgia
law because Brooks’ health screening met the standard of care and because the
Defendant had no input into classification or housing decisions at the Jail.50 The
Plaintiffs provide no response to CorrectHealth’s arguments in their reply
briefing. Indeed, the Plaintiffs did not address their state law negligence claims
at all in their response brief. Therefore, this Court finds that the Plaintiffs have

48

Pls.’ Resp. to CorrectHealth’s Statement of Material Facts, at 11
(citing Request for Proposal, at 30 [Doc. 173-2]).
49

Purcell, 400 F.3d at 1325.

50

CorrectHealth’s Mot. For Summ. J., at 15-16.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-11-

34a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 12 of 35

35a
abandoned their state law negligence claim.51 In any event, the Plaintiffs’
negligence claim was premised on the idea that CorrectHealth’s failure to assign
a heightened security classification to Brooks caused harm to the decedent.
Undisputed facts in the record establish that CorrectHealth had no duty to and
did not participate in classification decisions. Thus, the Plaintiffs cannot
establish a prima facie case for negligence against CorrectHealth and the claim
fails as a matter of law.
B. Supervisory Defendants
The Plaintiffs sued the Supervisory Defendants in their individual and
official capacities for “acts, omissions, policies, and customs” that they allege
violated the decedent’s rights secured by the Eighth and Fourteenth
Amendments.52 In its Order of Dismissal, this Court dismissed all claims against
the Supervisory Defendants in their official capacities except for those
concerning inadequate provision of medical care.53 As for the claims against the
Supervisory Defendants in their individual capacities, this Court dismissed the
Plaintiffs’ failure to train claim but did not dismiss the Plaintiffs’ claims

See Gore v. Jacobs Eng'g Grp., 706 F. App'x 981, 986 (11th Cir.
2017) (“[F]ailure to brief and argue [an] issue during the proceedings before the
district court is grounds for finding that the issue has been abandoned.”) (citing
Coal. for the Abolition of Marijuana Prohibition v. City of Atlanta, 219 F.3d
1301, 1326 (11th Cir. 2000)).
51

52

Compl. ¶ 115. The rights identified by the Plaintiffs included the
right to be free from cruel and unusual punishment, the right to be protected,
and the right to medical care while incarcerated.
53

Order of Dismissal, at 8 [Doc. 57].

T:\ORDERS\14\Grochowski\msjtwt.wpd

-12-

35a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 13 of 35

36a
concerning the Supervisory Defendants’ personal participation in a
constitutional violation.54 The Plaintiffs subsequently amended their complaint
to add claims for conditions of confinement that violated the decedent’s right not
to be punished prior to adjudication of guilt.55 The Plaintiffs also added a § 1983
claim on their own behalf for loss of familial association.56 At summary
judgment, the Supervisory Defendants request Eleventh Amendment immunity
for the claims against them in their official capacities and qualified immunity
for the claims against them in their individual capacities.57
The claim for loss of familial association is easily resolved. The County
and the Supervisory Defendants raised defenses to this claim in their briefing
to which the Plaintiffs failed to respond.58 The Plaintiffs have therefore
abandoned this claim and it is dismissed accordingly.59 As for the remaining
claims, this Court holds that the Supervisory Defendants are entitled to
immunity for the reasons provided below.
1. Official Capacity Claims

54

Id., at 10-11.

55

Second Am. Compl. ¶¶ 67-88 [Doc. 73].

56

Second Am. Compl. ¶ 89.

57

County and Supervisory Defendants' Mot. for Summ. J., at 12-22.

58

Id. at 22-23.

59

See Gore, 706 F. App'x at 985.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-13-

36a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 14 of 35

37a
Failure to provide medical care is the sole remaining claim against the
Supervisory Defendants in their official capacities.60 The Supervisory
Defendants contend that the medical care that Brooks and the decedent received
at initial intake was not constitutionally defective and that, in any event, the
Plaintiffs have provided no evidence that the Supervisory Defendants were
deliberately indifferent to the allegedly deficient medical care.61 The Supervisory
Defendants have established sufficient grounds to make the official capacity
claims against them subject to summary adjudication, and the Plaintiffs do not
substantively respond to the Supervisory Defendants’ arguments regarding the
sufficiency of the medical care provided to Brooks and the decedent. As such, the
claim against the Supervisory Defendants in their official capacities should be
dismissed.
Although it is not clear from the Plaintiffs’ briefing, the Plaintiffs could
be arguing that the Supervisory Defendants are liable because the results of
inmates’ medical screening are not taken into account during the classification
and housing process. As this Court already explained in its Order of Dismissal,
however, the Supervisory Defendants are entitled to Eleventh Amendment
immunity for all claims pertaining to jail administration, which includes
classification and housing decisions.62 Because the Plaintiffs allege that the
60

Order of Dismissal, at 8.

61

County and Supervisory Defendants’ Mot. for Summ. J., at 12-13.

62

Order of Dismissal, at 8.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-14-

37a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 15 of 35

38a
harm arose from the Jail’s classification system rather than from the medical
care itself, the Plaintiffs cannot sustain their claims regarding inadequate
provision of medical care against the Supervisory Defendants in their official
capacities.
2. Individual Capacity Claims
The Supervisory Defendants argue that they are entitled to qualified
immunity for the section 1983 claims brought against them in their individual
capacities. Qualified immunity exempts an officer from section 1983 liability
under certain circumstances.63 To be entitled to qualified immunity in the
Eleventh Circuit, an officer must show that he was acting within the scope of his
discretionary authority at the time of the alleged wrongful acts.64 Once the
officer has proved that he was within the scope of his discretionary authority,
the plaintiff must show that the officer violated “clearly established statutory
or constitutional rights of which a reasonable person would have known.”65 In
order to establish that a reasonable officer would have known of a right, a
plaintiff must show development of law in a “concrete and factually defined
context” such that a reasonable officer would know that his conduct violated
federal law.66 Two questions are central to the qualified immunity defense. First,
63

See Pearson v. Callahan, 555 U.S. 223, 231 (2009).

64

Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002).

65

Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).

66

Jackson v. Sauls, 206 F.3d 1156, 1164-65 (11th Cir. 2000).

T:\ORDERS\14\Grochowski\msjtwt.wpd

-15-

38a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 16 of 35

39a
the Court must determine whether there was a violation of a constitutional
right.67 Second, the Court must then determine whether the right was clearly
established.68 There is no dispute that the Supervisory Defendants were acting
within the scope of their discretion at all times relevant to this suit.69 Therefore,
the burden is on the Plaintiffs to establish that the Supervisory Defendants
violated clearly established law.
a. Constitutional Violation
A jail supervisor may be liable under § 1983 when that supervisor
personally participates in a constitutional deprivation or when there is a causal
connection between the supervisor's acts and the constitutional deprivation.70
When considering the claims of pretrial detainees, liability can attach when a
“prison official's deliberate indifference to a known, substantial risk of serious
harm violates the [Fourteenth] Amendment.”71 A showing of deliberate
indifference requires “(1) subjective knowledge of a risk of serious harm; (2)
disregard of that risk; (3) by conduct that is more than gross negligence.”72

67

Hope v. Pelzer, 536 U.S. 730, 736-42 (2002).

68

Lee, 284 F.3d at 1194.

69

Compl. ¶ 6; County and Supervisory Defendants’ Mot. for Summ.

J., at 19 n.3.
70

Brown v. Crawford, 906 F.2d 667, 671 (11th Cir. 1990).

71

Keith v. DeKalb Cnty., Ga., 749 F.3d 1034, 1047 (11th Cir. 2014).

72

Id. at 1047.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-16-

39a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 17 of 35

40a
Although the Plaintiffs alleged in their original complaint that the Supervisory
Defendants personally participated in the decision to house Brooks with the
decedent,73 the Plaintiffs appear to have dropped that line of argument at
summary judgment. Therefore, the question before this Court is whether the
Supervisory Defendants’ policies or practices caused the decedent to be deprived
of his constitutional rights.74
The Plaintiffs identify various policies and practices that they allege
violated the decedent’s constitutional rights. First, they allege that the Jail was
designed such that all detainees are double-celled without continuous
observation by the jail staff.75 Second, they allege that the Jail was underfunded
and understaffed, preventing jail staff from single-celling assaultive detainees
and conducting continuous rounds.76 Third, they allege that the screening,
classification, and cell-assignment processes were “grossly inadequate” and
resulted in non-violent detainees being housed with violent detainees.77 Fourth,
they allege that the Defendants had a “practice” of failing to prevent in-cell

73

Compl. ¶¶ 31-33. The Plaintiffs alleged that the Supervisory
Defendants personally observed “erratic behavior” displayed by Brooks but
failed to make any changes to his security designation or housing assignment.
74

Keith, 749 F.3d at 1048.

75

Pls.’ Resp. Br. to County and Supervisory Defendants’ Mot. for
Summ. J., at 2.
76

Id.

77

Id. at 3.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-17-

40a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 18 of 35

41a
assaults because they did not investigate or seek to change the conditions that
gave rise to previous in-cell assaults.78
The Plaintiffs insist that these policies and practices constitute
“conditions of confinement” that should be analyzed under the objective test
articulated by the Supreme Court in Bell v. Wolfish.79 The Supreme Court held
in Bell that conditions claims brought by pretrial detainees arise under the
Fourteenth Amendment, which prohibits punishment prior to the adjudication
of guilt.80 A condition of confinement violates the Fourteenth Amendment if it
is imposed with the intent, express or inferred, to punish the pretrial detainee.81
The Eleventh Circuit, however, has held that the decisional law applicable to
prison inmates applies equally to pretrial detainees.82 As a result, the Eleventh
Circuit has required plaintiffs challenging conditions of confinement to show
both that the deprivation suffered was objectively serious and that prison
officials were deliberately indifferent to the violation of the plaintiff’s

78

Id. at 4.

79

441 U.S. 520 (1979); Pls.’ Mot. for Partial Summ. J., at 1-2 [Doc.
142] (arguing that the Bell standard applies to the Plaintiffs’ claims).
80

Bell, 441 U.S. at 535-36.

81

Id. at 538-40.

Hamm v. DeKalb Cty., 774 F.2d 1567, 1574 (11th Cir. 1985); see
also Cottrell v. Caldwell, 85 F.3d 1480, 1490 (11th Cir. 1996).
82

T:\ORDERS\14\Grochowski\msjtwt.wpd

-18-

41a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 19 of 35

42a
constitutional rights.83 The Plaintiffs argue that the recent Supreme Court case

Kingsley v. Hendrickson abrogates Eleventh Circuit precedent such that the
Plaintiffs need only satisfy Bell’’s objective standard without a showing of
deliberate indifference.84
The Plaintiffs' argument regarding the reach of Kingsley is unpersuasive.
The Eleventh Circuit has thus far declined to apply Kingsley beyond the
excessive force context in which it arose, despite opportunities to do so.85 The
Plaintiffs give this Court no compelling reason to depart from decades of binding
case law establishing that plaintiffs must show deliberate indifference in prison
conditions cases. This Court need not reach the question of whether the
Supervisory Defendants were deliberately indifferent, however, because none
of the challenged policies created an objectively substantial risk of serious

83

See Evans v. St. Lucie Cty. Jail, 448 F. App'x 971, 973–75 (11th

Cir. 2011) (requiring that a pretrial detainee bringing a prison conditions case
show that (1) the deprivation was “sufficiently serious” and (2) prison officials
had a “sufficiently culpable state of mind”) (citations omitted).
84

135 S. Ct. 2466 (2015); Pls.’ Mot. for Partial Summ. J., at 8-9
(arguing that the Plaintiffs need not show that the defendants were deliberately
indifferent in prison conditions cases).

See Nam Dang ex rel Vina Dang v. Sheriff, Seminole Cty. Fla., 871
F.3d 1272, 1279 n.2 (11th Cir. 2017) (declining to extend Kingsley’s holding to
a pretrial detainee’s claim of inadequate medical treatment); see also Collins v.
Bates, No. 2:14-CV-231-WHA, 2017 WL 4054160, at *4 (M.D. Ala. Aug. 4, 2017)
85

(compiling cases in which the Eleventh Circuit has applied the deliberate
indifference standard to prison conditions cases brought by pretrial detainees
post-Kingsley), report and recommendation adopted, No. 2:14-CV-231-WHA,
2017 WL 3951601 (M.D. Ala. Sept. 8, 2017).

T:\ORDERS\14\Grochowski\msjtwt.wpd

-19-

42a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 20 of 35

43a
harm.86 Nor do the facts support the inference that any of the policies were
implemented with the intent to punish inmates at the Jail.
The Plaintiffs criticize the Jail's “objective” classification process on the
grounds that classification officers do not conduct face-to-face interviews with
inmates and do not consider violent misdemeanors.87 As a result, the Plaintiffs
argue, inmates with assaultive tendencies are double-celled with non-violent
inmates, making in-cell assaults substantially more likely.88 The Plaintiffs cite
case law standing for the proposition that classification systems cannot be
random and must at least consider inmates' capacity for violence.89 Although jail
administrators must consider an inmate's capacity for violence during the
classification process, it is not the role of the judiciary to second-guess
administrative decisions about which indicators should be considered and how
they should be weighed. This Court is mindful of the Supreme Court's
admonition that jail administrators “should be accorded wide-ranging deference

Keith, 749 F.3d at 1047 (“Whether a risk of harm is substantial is
an objective inquiry.”) (citing Marsh v. Butler Cty., Ala., 268 F.3d 1014, 1028
(11th Cir. 2001)).
86

87

Pls.’ Mot. for Partial Summ. J., at 16-18.

88

Id.

Cf. Gates v. Collier, 501 F.2d 1291, 1308 (5th Cir. 1974) (“The
inmates are not classified according to the severity of their offense, resulting in
the intermingling of inmates convicted of aggravated violent crimes with those
who are first offenders or convicted of nonviolent crimes.”); Jensen v. Clarke, 94
F.3d 1191, 1199 (8th Cir. 1996) (“random” assignment of inmates based only on
space availability created a substantial risk of harm).
89

T:\ORDERS\14\Grochowski\msjtwt.wpd

-20-

43a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 21 of 35

44a
in adoption and execution of policies and practices that in their judgment are
needed to preserve internal order and discipline and to maintain institutional
security.”90 The classification system in place at the Jail takes into account
various security-related factors, including the inmates' history of violent felonies
and disciplinary records from previous detentions at the facility.91 The Plaintiffs
put forward several recommendations for how the classification process could
be changed to better detect an inmate's propensity for violence. But the
dispositive question is not whether the classification system could be improved.92
Rather, the question is whether the existing system falls below what the
Constitution minimally requires.93 Even assuming that these incidents could be
fairly traced to the Jail's classification system, a few isolated events from several

90

Bell, 441 U.S. at 547.

91

County and Supervisory Defendants’ Statement of Material Facts
in Supp. of Mot. for Summ. J. ¶ 33.
92

Bell, 441 U.S. at 562 (“The first question to be answered is not

whose plan is best, but in which branch of the Government is lodged the
authority to initially devise the plan… [T]he inquiry of federal courts into prison
management must be limited to the issue of whether a particular system
violates any prohibition of the Constitution[.]”).
93

Pls.’ Additional Statement of Material Facts ¶¶ 1-3. The Plaintiffs
in fact identify six in-cell fights that occurred between May 12, 2007 and April
24, 2009. For two of these fights, however, the Plaintiffs provide no information
as to the participants' criminal histories. Id. ¶¶ 4-5. As for the altercation
between Antonio Raspberry and Bruce Goodman, see id. ¶ 6, that incident
occurred in administrative segregation, not general population, and is therefore
of little relevance to the case at bar. See Goodman v. Kimbrough, 718 F.3d 1325,
1329 (11th Cir. 2013).

T:\ORDERS\14\Grochowski\msjtwt.wpd

-21-

44a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 22 of 35

45a
years prior are simply not enough to establish a causal connection between the
challenged classification system and the allegedly unsafe conditions at the Jail.94
The Plaintiffs further assert that at least 115 in-cell assaults occurred in the
Jail between 2010 and 2012.95 The County and the Supervisory Defendants
have objected to the methodology by which the Plaintiffs came by their figures
and the manner in which it has been presented to this Court.96 Even if the
Plaintiffs’ numbers are correct, however, the Plaintiffs do not identify which, if
any, of these assaults would not have occurred but for the inadequate
classification system. The evidence provided by the Plaintiffs could not persuade
a reasonable factfinder that the Supervisory Defendants' classification policies
created an objectively serious risk of harm.
The Plaintiffs' evidence concerning the Jail's supervision policies is
similarly insufficient. As with the classification system, the Plaintiffs put
forward several means by which the inmate supervision could be improved. The
Plaintiffs suggest that cell doors could have larger windows; that audio or video
monitoring devices could be installed in each cell; or that more corrections
94

A history of widespread abuse can put the supervisory official on
notice of the need to take corrective action. Brown, 906 F.2d at 671. But “the
deprivations that constitute widespread abuse... must be obvious, flagrant, and
of continued duration, rather than isolated occurrences.” Id.
95

Pls.’ Mot. for Partial Summ. J., at 14.

96

See Notice of Objection to Pls.’ Summary Chart [Doc. 165]; County

and Supervisory Defendants’ Reply Br. in Support of Mot. for Summ. J., at 1011.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-22-

45a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 23 of 35

46a
officers could be assigned to each shift.97 These suggestions appear designed to
achieve the goal of continuous or near-continuous supervision of cell interiors.
But the Plaintiffs do not provide, and this Court is unaware of, any cases
holding that continuous supervision of double-celled inmates is required by the
Constitution. Identifying the minimal constitutional requirements for inmate
supervision is challenging because of the fact-specific nature of prison conditions
cases. Eleventh Circuit precedent, however, would appear to set the bar well
below the conditions challenged in this case. In Popham v. City of Talladega, the
widow of a man who committed suicide while detained in a city jail brought suit
against jail officials for failure to protect and properly monitor her decedent.98
The portion of the cell in which the suicide occurred was not in view of the jail's
video monitoring system, and no jail staff were on duty to conduct physical
checks.99 The Eleventh Circuit nevertheless rejected the claim, noting that the
plaintiff had “cite[d] no cases for the proposition that deliberate indifference is
demonstrated if prisoners are not seen by jailers at all times.”100 In Cagle v.

Sutherland, the Eleventh Circuit held that a one hour forty minute gap between
cell checks did not amount to deliberate indifference, notwithstanding a
97

Pls.’ Resp. to County and Supervisory Defendants’ Statement of
Material Facts ¶¶ 29-30, 38.
98

908 F.2d 1561, 1563 (11th Cir. 1990).

99

Id. at 1565.

100

Id.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-23-

46a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 24 of 35

47a
previous consent decree mandating hourly cell checks at the prison.101 The
Eleventh Circuit noted that the consent decree “did not establish a
constitutional right to hourly jail checks” strongly suggesting that, in the
Eleventh Circuit's view, even hourly cell checks are not constitutionally
required.102 The out-of-circuit cases that the Plaintiffs marshal in support of the
contrary proposition do not go so far as to require continuous observation and,
in any event, present factual scenarios quite distinct from the case before this
Court.103 The Plaintiffs’ evidence is not sufficient to show that lack of continuous
observation deprived any inmate of his or her constitutional rights.
In addition to the Jail's classification and supervision policies, the
Plaintiffs challenge what they characterize as a “policy of allowing in-cell

101

334 F.3d 980, 989 (11th Cir. 2003).

102

Id.

In Lareau v. Manson, the Second Circuit adopted the magistrate
judge's finding that double celling inmates without providing adequate means
of contacting guards violates the Eighth Amendment. 651 F.2d 96, 108 n.11 (2d
Cir. 1981). The record on appeal is silent as to the frequency of physical cell
checks (or even whether such checks occurred at all) or the presence or absence
of emergency call buttons in the cell. And, even taking into account the
magistrate judge's findings, the Second Circuit concluded that holding pretrial
detainees in such conditions was constitutionally permissible for a period of 15
days or less. Id. at 105. In Hart v. Sheahan, the Seventh Circuit considered a
case in which jail staff did not observe inmates for a period of forty eight to fifty
consecutive hours while the staff conducted weapons and contraband checks in
different sections of the jail. 396 F.3d 887 (7th Cir. 2005). The remarkable and
easily distinguishable facts in that case make it wholly unhelpful in addressing
the issues presently before this Court.
103

T:\ORDERS\14\Grochowski\msjtwt.wpd

-24-

47a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 25 of 35

48a
assaults to go un-prevented.”104 While the Plaintiffs list this policy as a condition
of confinement subject to review under the Bell v. Wolfish standard, it is difficult
to conceptualize how the failure to investigate the causes of previous in-cell
assaults could be a “condition” imposed on current detainees. In their briefing,
the

Plaintiffs

assert

that

this

policy

“reeks

of

deliberate

indifference”—apparently arguing that the supervisors were deliberately
indifferent to an excessive risk of inmate-on-inmate violence.105 The evidence to
support this allegation is thin at best. Jail officials are not the guarantors of
inmate safety.106 In order to establish that inmate-on-inmate violence is
excessive, the Plaintiffs must show that “violence and terror reign” at the Jail.107
Inmates must be exposed to a near-constant threat of violence.108 The Plaintiffs
assert that there had been 115 in-cell assaults over a period of about three years
leading up to the attack.109 The Plaintiffs further assert that the rate of in-cell
assaults is “high” in proportion to the total number of assaults over the same

104

Pls.’ Resp. Br. to County and Supervisory Defendants’ Mot. for
Summ. J., at 3.
105

Id. at 16.

106

Popham, 908 F.2d at 1564.

107

Purcell, 400 F.3d at 1320.

108

Id.

109

Pls.’ Mot. for Partial Summ. J., at 14.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-25-

48a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 26 of 35

49a
period.110 But, even if the Plaintiffs have the numbers right, an in-cell assault
rate of roughly thirty eight per year is not sufficient to show that the “violence
and terror reign” at the Jail or that inmates are subject to a “constant threat of
violence.” It is not incumbent on the Supervisory Defendants to investigate the
root causes of every in-cell assault, particularly when the incident records relied
on by the Plaintiffs show that the perpetrators of the assaults are quickly
identified and appropriate disciplinary action is taken. The Plaintiffs make
much of the case Goodman v. Kimbrough, in which the Sheriff was sued in his
official capacity after a detainee was brutally beaten by his cell-mate while in
administrative segregation.111 But the constitutional adequacy of the Jail's
classification and supervision policies were not at issue in the case. On the
contrary, it was deviations from official policy–namely deactivating emergency
call buttons and failing to conduct cell checks and head counts–that gave rise to
claims in Goodman.112 There is no sense in which Goodman could have put the
Supervisory Defendants on notice of a substantial risk posed by their
classification and supervision policies. Thus, the Supervisory Defendants cannot
as a matter of law be liable for their alleged policy of “allowing in-cell assaults
to go unprevented.”
110

Id.

111

Goodman, 718 F.3d at 1329.

112

Id. at 1335 (“Goodman does not allege that any official Sheriff’s

Department policy violated his constitutional rights.”).

T:\ORDERS\14\Grochowski\msjtwt.wpd

-26-

49a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 27 of 35

50a
Because this Court concludes that none of the challenged policies give rise
to an objectively substantial risk of serious harm as a matter of law, it is
perhaps redundant to consider whether these policies constitute unconditional
conditions of confinement as urged by the Plaintiffs. Regardless, the Plaintiffs
cannot prevail even by application of their preferred standard. There is nothing
on the record to suggest that the Supervisory Defendants implemented the
aforementioned policies with the express intent to punish detainees. Thus, in
order to prevail the Plaintiffs must show that the challenged conditions are not
reasonably related to any legitimate penological purpose. The factfinder would
then be permitted, but not required, to draw the inference that the conditions
were imposed with the intent to punish detainees. In this case, the Jail's
classification, supervision, and housing policies are clearly related to the
Supervisory Defendants' legitimate penological interests in “preserv[ing]
internal order and discipline and to maintain institutional security.”113 This
Court declines the Plaintiffs' invitation to view each absence of some additional
safety measure as a condition of confinement that itself must further a
penological interest. Insofar as the absence of additional safeguards requires
explanation, the Supervisory Defendants supply penological interests, like
ensuring that classification systems are unbiased and protecting inmate privacy,

113

Bell, 441 U.S. at 547.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-27-

50a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 28 of 35

51a
that the Plaintiffs fail to meaningfully refute.114 Moreover, the Eleventh Circuit
has recognized “reasonably limit[ing] the cost of detention” as a legitimate
penological interest, notwithstanding the Plaintiffs’ protestations to the
contrary.115 In short, the Plaintiffs' evidence cannot give rise to the inference
that the challenged conditions are unconstitutional punishments. The
Supervisory Defendants are entitled to qualified immunity on the grounds that
the Plaintiffs cannot show that their policies violated the decedent's
constitutional rights.
b. Clearly Established Law
Even if the Plaintiffs could establish that the decedent’s constitutional
rights were violated, they cannot establish that the Supervisory Defendants
violated clearly established law. For the law to be so clearly established as to
overcome qualified immunity, it must have “earlier been developed in such a
concrete and factually defined context to make it obvious to all reasonable
government actors, in the defendant’s place, that ‘what he is doing’ violates

114

The Plaintiffs insist that protecting inmate privacy is not a
legitimate penological interest because inmates' privacy rights are substantially
curtailed while incarcerated. Pls.’ Mot. for Partial Summ. J., at 10-11 [Doc. 142].
But the Plaintiffs’ discussion of the privacy rights of inmates is beside the point.
The Supervisory Defendants may well have an interest in preserving inmate
privacy even if the inmates do not have a right to demand privacy.
115

Hamm, 774 F.2d at 1573.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-28-

51a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 29 of 35

52a
federal law.”116 For the purposes of determining whether the law is clearly
established, this Court may consider only decisions from the Eleventh Circuit,
the Supreme Court, and the Georgia Supreme Court.117
The Plaintiffs provide only two cases for this Court’s consideration,
neither of which are sufficient to overcome the high bar that the Eleventh
Circuit has set for overcoming a defendant’s claim of qualified immunity. In

Hale v. Tallapoosa County, the plaintiff was placed in a 13-by-20-foot “bullpen”
with over a dozen other inmates, none of whom were segregated based on their
proclivity for violence.118 The plaintiff, who was booked for failure to appear, was
attacked by a detainee booked for murder and attempted murder.119 The sole
corrections officer tasked with monitoring the bullpen checked in only twice over
a five hour period.120 In short, the facts of Hale are not sufficiently similar to
those in this case to have given the Supervisory Defendants notice that their
policies violated clearly established law.

Jenkins by Hall v. Talladega City Bd. of Educ., 115 F.3d 821, 823
(11th Cir. 1997) (quoting Lassiter v. Alabama A & M Univ., 28 F.3d 1146 (11th
116

Cir. 1994)).
117

Id. at 826 n.4.

118

50 F.3d 1579, 1580-81 (11th Cir. 1995).

119

Id.

120

Id.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-29-

52a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 30 of 35

53a
The facts of Marsh v. Butler County, Ala. are even further removed from
those presented in this case.121 In Marsh, the plaintiffs were assaulted and
injured by prisoners at the Butler County Jail. The plaintiffs raised the
following claims regarding conditions at the jail:
1) there was no segregation of nonviolent inmates from violent
inmates, pretrial detainees from convicted criminals, juveniles
from adults, or inmates with mental disorders from those without
mental disorders, 2) at times the Jail housed more prisoners than
the cells could accommodate, 3) the Jail was routinely
understaffed, 4) no head counts of prisoners were made to make
sure they were all accounted for, 5) locks on cell doors were not
functional, allowing inmates to roam freely at all hours of the day,
6) homemade weapons were readily available by fashioning
weapons from material torn from the dilapidated structure of the
Jail, 7) no lock down of prisoners in their cells occurred at any
point during the day or night, 8) cells were not visually inspected,
9) no jailer was assigned to maintain prisoners' security on the
second floor where most of the inmates were housed, 10) the Jail
was not operated in accordance with written policies, 11) inmates
were not screened for mental health, medical conditions or conflicts
with other prisoners before entering the Jail, and 12) prisoners
were not disciplined or segregated when they attempted to escape,
threatened jailers, destroyed property or assaulted other
inmates.122
These conditions reflect a total abdication of the jail officials’ duty to classify,
supervise, and otherwise protect the inmates and detainees at the Butler
County Jail. But, precisely because the alleged conditions are so shocking,

Marsh is of little assistance to the Plaintiffs in establishing that the Supervisory
Defendants violated clearly established law. Marsh, like Hale, could not have
121

268 F.3d 1014 (11th Cir. 2001).

122

Id. at 1029.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-30-

53a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 31 of 35

54a
put a reasonable jail official on notice that an “objective” classification system
or lack of continuous supervision could violate inmates’ constitutional rights.
Thus, the Plaintiffs cannot meet their burden of showing that the Supervisory
Defendants violated clearly established law.
C. The County
The Plaintiffs seek to hold the County liable for “systemic conditions of
confinement” at the Jail that create an unreasonable risk of inmate-on-inmate
violence.123 The Plaintiffs challenge (1) elements of the Jail’s structure that
make it difficult to continuously observe inmates; (2) an alleged policy of
underfunding the Jail resulting in the Jail being understaffed; (3) an allegedly
inadequate classification system; and (4) an alleged failure to investigate the
causes of in-cell assaults.124 And, as already covered in the forgoing discussion
of the claims against the Supervisory Defendants, the Plaintiffs assert that they
need not show that the County or any of its policymakers were deliberately
indifferent to an objectively substantial risk of serious harm.
Notwithstanding the Plaintiffs’ insistence that the County and the
Supervisory Defendants are jointly and severally liable for each of the
challenged conditions, this Court holds that the County cannot be found liable
for constitutional violations arising from the challenged housing and
123

Pls.’ Mot. for Partial Summ. J., at 1.

124

Pls.’ Resp. Br. to County and Supervisory Defendants’ Mot. for
Summ. J., at 2-3.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-31-

54a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 32 of 35

55a
classification decisions or from the alleged failure to investigate and ameliorate
the causes of in-cell assaults. Under Georgia law, the Sheriff, and not the
County, is responsible for the day to day operation of the jail.125 In matters of jail
administration, the Sheriff is an arm of the state and his actions cannot give rise
to County liability when he acts in his capacity as jail administrator.126 The
County has no authority to establish or modify the jail's housing and
classification policies. Nor can the County require the Sheriff to engage in
“systemic reviews” or investigate in-cell assaults.127 As such, this Court will
assess only those claims concerning matters over which the County had the final
say–namely, the Jail’s structure and funding.
The County is liable under § 1983 if its policies or customs were the
“moving force” behind a constitutional violation.128 The plaintiff must show “(1)
that his constitutional rights were violated; (2) that the municipality had a
custom or policy that constituted deliberate indifference to that constitutional

125

Purcell, 400 F.3d at 1325.

126

Id.

127

The Plaintiffs argue that the classification system is a “County
practice pursuant to its medical duty[.]” Pls.’ Resp. Br. to County and
Supervisory Defendants’ Mot. for Summ. J., at 21. For the same reasons that
CorrectHealth is not liable for harm arising from the classification system, the
County is not liable for the same.
128

Monell, 438 U.S. at 694.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-32-

55a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 33 of 35

56a
right; and (3) that the policy or custom caused the violation.”129 Georgia counties
have statutory duties involving “jail structure[,] inmates’ food, clothing, and
medical necessities.”130 The Plaintiffs argue that, because this is a conditions of
confinement claim, they need not show that the County was deliberately
indifferent to the risk that its policies or customs would give rise to
unconstitutional conditions of confinement.131 This Court need not reach the
question of whether the County was deliberately indifferent, however, because
the Plaintiffs cannot clear the first hurdle of showing that the challenged
conditions of confinement were unconstitutional. As already discussed in the
context of the Supervisory Defendants’ liability for inadequate supervision, the
Constitution does not require that double-celled inmates be continuously
observed. It follows that elements of the Jail’s design that make continuous
observation difficult cannot give rise to liability for the County. As for the
Plaintiffs’ argument concerning underfunding, the Plaintiffs have not shown
that staffing levels at the Jail fall below constitutional minima. There is also no
evidence in the record suggesting that more officers would have been assigned

129

McDowell v. Brown, 392 F.3d 1283, 1289 (11th Cir. 2004) (citing

City of Canton v. Harris, 489 U.S. 378, 385 (1989)).
130

Manders, 338 F.3d at 1322.

131

Pls.’ Mot. for Partial Summ. J., at 8-9.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-33-

56a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 34 of 35

57a
to the night shift if the County had provided additional funding.132 The
Plaintiffs’ argument that the County’s jail design and funding decisions are not
related to a legitimate penological interest is foreclosed by the Eleventh Circuit’s
holding in Hamm that “reasonably limit[ing] the cost of detention” is a
legitimate penological interest.133 Therefore, the County is not liable under §
1983 for the challenged conditions or policies.
IV. Conclusion
For the forgoing reasons, (1) the Defendants CorrectHealth, LLC, James
Rose and Walter Smith’s Motion for Summary Judgment [Doc. 137] is
GRANTED; (2) the Defendants Clayton County, Kemuel Kimbrough, Garland
Watkins, Robert Sowell, and Samuel Smith’s Motion for Summary Judgment
[Doc.138] is GRANTED; and (3) the Plaintiffs’ Motion for Partial Summary
Judgment [Doc. 139] is DENIED.

132

The Plaintiffs make much of the fact that a housing unit at the Jail
was closed at the time of the assault. Pls.’ Reply Br. in Supp. of Mot. for Partial
Summ. J. [Doc. 186]. The Plaintiffs argue that, had the housing unit been open,
jail officials would have been able to single-cell assaultive detainees. But
whether assaultive detainees could have been housed in the closed unit is
irrelevant. Brooks was classified as a medium security, non-assaultive inmate
and so would not have been single-celled even if the option were available. Thus,
there is no possible way in which the closure of the housing unit could have
caused the decedent harm.
133

Hamm, 774 F.2d at 1573.

T:\ORDERS\14\Grochowski\msjtwt.wpd

-34-

57a

Case 1:14-cv-02586-TWT Document 195 Filed 09/28/18 Page 35 of 35

58a
SO ORDERED, this 28 day of September, 2018.

/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

T:\ORDERS\14\Grochowski\msjtwt.wpd

-35-

58a

Case 1:14-cv-02586-TWT Document 124 Filed 12/20/17 Page 1 of 6

59a

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONALD GROCHOWSKI, as a
Representative administrator of the
Estate of Kenneth Grochowski,
Deceased, and DONALD
GROCHOWSKI and ADAM
GROCHOWSKI, as next of kin
To Kenneth Grochowski,

)
)
)
)
)
)
)
)
Plaintiffs,
)
)
v.
)
)
CLAYTON COUNTY, GEORGIA, )
et al.,
)
)
Defendants.
)

CASE NO.: 1:14-CV-02586-TWT

ORDER
This matter is before the Court on Defendant Clayton County, Georgia’s
Motion for Protective Order, or in the alternative, Motion to Quash the Subpoena
issued to former Clayton County Commissioner Crandle Bray filed on November
8, 2017. (Doc. 107.) Plaintiffs filed their Response on November 15, 2017 (Doc.
108) and the Court held a hearing in Chambers on November 29, 2017 (Doc. 117).
Upon consideration of the briefs and the arguments of counsel at the
November 29, 2017, the Court hereby GRANTS the Motion for Protective Order
(Doc. 107).

-159a

Case 1:14-cv-02586-TWT Document 124 Filed 12/20/17 Page 2 of 6

60a

Plaintiffs attempt to depose non-party Crandle Bray, former Chairman of the
Clayton County Board of Commissioners, regarding his decision-making process
with respect to any design or budget considerations in constructing the current
Clayton County Jail. The County objects to the deposition of its former Chairman
based on legislative immunity, the Apex doctrine, and improper service of a
subpoena under Rule 45(b).
The decision to enter a protective order is within the Court’s discretion and
does not depend on a legal privilege. Farnsworth v. Procter & Gamble Co., 758
F.2d 1545, 1548 (11th Cir. 1985). Rule 26(c) provides that upon a showing of
good cause, a court “may make any order which justice requires to protect a party
or person from annoyance, embarrassment, oppression, or undue burden or
expense.”
It is well-established Georgia law that individual members of a local
governing body are entitled to absolute legislative immunity from litigation
which arises from their legislative functions.

Fulton County v. Dangerfield,

260 Ga. 665, 666-67, 398 S.E.2d 14, 15 (1990); Jackson v. Delk, 257 Ga. 541, 543,
361 S.E.2d 370, 372 (1987).
This immunity is more than a defense to liability; it is a testimonial

-260a

Case 1:14-cv-02586-TWT Document 124 Filed 12/20/17 Page 3 of 6

61a

privilege. Thus, “in a judicial proceeding, the testimony of a legislator, with
respect to the legislative intent underlying the enactment of a particular piece of
legislation, is inadmissible.” Jackson, 257 Ga. at 543, 361 S.E. at 372 (holding that
trial court erred in requiring county commissioners to submit to deposition
questioning concerning their individual intentions with respect to rezoning
decision). Georgia courts have consistently rejected attempts to inquire into the
subjective intent of a local governing body. In fact, the Georgia Supreme Court
has held that local legislators are not required to appear and testify in response to a
subpoena, even where they did not seek a protective order beforehand. Doyal v.
Fulton County, 259 Ga. 482, 482, 384 SE 2d 390, 391 (1989).
The doctrine of legislative immunity is equally well-established under
Federal law. Yeldell v. Cooper Green Hosp. Inc., 956 F.2d 1056, 1060 (11th Cir.
1992). This privilege was extended to state legislators for actions taken “in the
sphere of legitimate legislative activity” in the Supreme Court case of Tenney v.
Brandhove, 341 U.S. 367, 376, 71 S. Ct. 783, 95 L. Ed. 1019 (1951), and further
expanded in this Circuit to include local legislators in Hernandez v. City of
Lafayette, 643 F.2d 1188 (5th Cir. 1981). See also DeSisto Colley, Inc. v. P. Line,
888 F.2d 755, 764-65 (11th Cir. 1989); Baytree of Inverarry Realty Partners v. City
of Lauderhill, 873 F.2d 1407, 1409 (11th Cir. 1989); Espanola Way Corp. v.
Meyerson, 690 F.2d 827, 829 (11th Cir. 1982).
-3-

Case 1:14-cv-02586-TWT Document 124 Filed 12/20/17 Page 4 of 6

62a

Legislative immunity attaches when legislators engage “in legislative
activity.” DeSisto College Inc., 888 F.2d at 765 (11th Cir. 1989). Under Eleventh
Circuit law, engaging in legislative activity means any “conduct in furtherance of
[the legislator’s] duties.” Id. (citing Hernandez, 643 F.2d at 1193). The nature of
the legislative act “determines whether legislative immunity shields the individual
from suit.” Yeldell, 956 F.2d at 1062. Protected acts are those that are “an integral
part of the deliberative and communicative processes by which [legislators]
participate in ... proceedings with respect to the legislation.” Smith v. Lomax, 45
F.3d 402, 405 (11th Cir. 1995). These acts include activities such as voting, speech
making on the floor, preparing committee reports, and participating in committee
investigations and proceedings. Yeldell, 956 F.2d at 1062; DeSisto, 888 F.2d at
765.
“Legislative immunity not only protects state legislators from civil liability,
it also functions as an evidentiary and testimonial privilege... Thus, a state
legislator acting ‘within the sphere of legitimate legislative activity’ may not be a
party to a civil suit concerning those activities ... nor may he be required to testify
regarding those same actions.” Marylanders for Fair Representation, Inc. v.
Shaefer, 144 F.R.D. 292, 297-98 (D. Md. 1992); see also Burtnick v. Mclean, 76
F.3d 611, 613 (4th Cir. 1996) (holding that members of a Board of Estimates in a
discrimination case pursuant to 42 U.S.C. §§1981 and 1983 were privileged not to
-462a

Case 1:14-cv-02586-TWT Document 124 Filed 12/20/17 Page 5 of 6

63a

testify -- “[Plaintiff’s] attempt to establish a prima facie case will have to be
accomplished without the testimony of the members of the Board ....”). Mitchell v.
Forsyth, 472 U.S. 511, 526, 105 S. Ct. 2806, 86 L. Ed. 2d 411 (1985); see also
Marx v. Gumbinner, 855 F.2d 783, 788 (11th Cir. 1988) (explaining that immunity
covers "other burdens attendant to litigation, including pretrial discovery").
In Roma Outdoor Creations, Inc. v. City of Cumming, No. 2:07-CV-0133WCO, 2008 U.S. Dist. LEXIS 120896, at *8-9 (N.D. Ga. Sep. 18, 2008), for
example, the court found that legislative immunity protected a city mayor from
deposition. In so doing, the Court stated:
Since legislative immunity extends to both executive
officers conducting legislative activities and pretrial
discovery, the doctrine plainly applies to the deposition
of a mayor regarding the application of a city ordinance.
Defendants correctly argue that the mayor’s
interpretation of an ordinance that governs public votes
that he regularly casts falls within a quintessentially
legislative domain. As such, legislative immunity
prevents the plaintiff from being able to force the
mayor’s hand.
City of Cumming, 2008 U.S. Dist. LEXIS 120896, at *8.
In this case, plaintiffs desire to depose former Chairman Bray as to design
considerations and aspects of the budget that the former Board of Commissioners
considered in the development of the current Clayton County Jail. Plaintiffs
therefore seek to inquire as to former Chairman Bray and the Board’s motives and
purposes and their deliberative and communicative processes. This line of inquiry
-563a

Case 1:14-cv-02586-TWT Document 124 Filed 12/20/17 Page 6 of 6

64a

is related purely to legislative decisions, and former Chairman Bray is entitled
to the testimonial privilege attached to the applicability of legislative immunity.
Therefore, the County’s motion for protective order is GRANTED.1
SO ORDERED this 20th day of December, 2017.

/s/Thomas W. Thrash
THOMAS W. THRASH, JR.
United States District Judge

1

Because the Court finds that Commissioner Bray is entitled to legislative
immunity, the Court declines to address Clayton County’s arguments with respect
to the Apex doctrine and improper service of the subpoena.
-664a

Case 1:14-cv-02586-TWT Document 1-21 Filed 08/11/14 Page 7 of 75

65a

Blood drr:n on cell floor

EM5 Teanr Assistance

lF

Fit, :

1::t,

,
,1,,
'i :,
ij:

i:l ,
,:,'i'
Eli:.i
+1

,ri
i

I
'r

'i,il
I

:'

l:rl

Utlit

,

.i.i l.
rril'i,
':11

,'i

'
l

i

EMS Team Assistance

Cell#62L0 after incident

ti"
i
i
I

HT:lrlil

f,i

i
l
I

fl,+

i

i

l

ii'i

ti,i
,,f
:I

r
.

't

i

'"i

!

't*,j

'ffi

IJPB 82

Case 1:14-cv-02586-TWT Document 1-21 Filed 08/11/14 Page 8 of 75

66a

IJPB 83

Case 1:14-cv-02586-TWT Document 146-2 Filed 05/18/18 Page 1 of 1

67a
1.,.-r

,)-

.-

\7

a

u

o-

OPP.

l!

E$r,

M,ATCHINE

a-'/.u

CORR.

PA}{iT

rIAN

0Pp

t1'lA

01,1D00R nEC.

lo:iEi

tI

L
z

)

(,

z

I

tn

o
CEII.

n

?
@

I

'o

a

P2"$
-0\

d\v
- H.'U. 6
PLAINTIFF"S

EXHIBIT

il:q,ltt
67a

{

l

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 1 of 26

68a

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONALD GROCHOWSKI, et al.,
Plaintiffs,
v.
CLAYTON COUNTY, GEORIGA, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Civ. Act. No. 1:14-cv-02586
Plaintiffs’ Brief in Support
Of Plaintiffs’ Motion For
Partial Summary Judgment
Against The County

PLAINTIFFS’ BRIEF IN SUPPORT OF PLAINTIFFS’
MOTION FOR PARTIAL SUMMARY JUDGMENT AGAINST THE COUNTY
Plaintiffs bring claims pursuant to the Fourteenth Amendment Due Process
Clause against Defendant County for systemic conditions of confinement that
constitute grossly inadequate protection from harm by other detainees and a
substantial risk of in-cell detainee-on-detainee assault within the eight doublecelled housing units in the Clayton County Jail. Plaintiffs maintain that the
challenged conditions lasted for years leading up to the assault on Grochowski on
August 14, 2012, when the challenged conditions caused the assault on and killing
of Grochowski by his cellmate. Grochowski’s constitutional rights were deprived
when he was confined within the challenged conditions even before the start of the
assault by Brooks. See Bugge v. Roberts, 430 F. App'x 753, 760 n.7 (11th Cir.

1

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 2 of 26

69a

2011). Because the challenged conditions proximately caused the assault on and
death of Grochowski, damages are recoverable for those losses.
1.

The Challenged Conditions Are Unconstitutional By Inadequately Protecting
From A Substantial Risk of In-Cell Detainee-On-Detainee Assault
Pursuant to Bell v. Wolfish, 441 U.S. 520 (1979) there are three elements for

a pretrial-conditions claim: (1) a condition of confinement, (2) that is not
reasonably related to a legitimate goal of detention, and (3) a severity requirement
that the condition imposes more than de minimis harm. 539-40 & n.21
A.

The Challenged Jail Design And Classification Process Constitute A
“Condition” Triggering The Objective Bell Standard.
i.

Conditions Are Established By Widespread Practices.

In Bell double-celling and jail design were conditions of confinement. 441
U.S. 520, 541-43 (1979).1 In Hare v. City of Corinth, 74 F.3d 633 (5th Cir. 1996)
(en banc) the Court extrapolated from Bell that a “condition” refers to “general
conditions, practices, rules, or restrictions of pretrial confinement,” as opposed to
“the episodic act or omission of a state jail official.” Hare, at 644 & 647-648.
Plaintiffs’ challenge to double-celling and the jail and door design preventing in-

1

In Bell the district court found double-celling unconstitutional based on
personal security and privacy, and the court of appeals affirmed based on the
privacy concern. See Bell at 541-42. The Supreme Court reversed, finding no
evidence that the lack of privacy and limited personal space established “genuine
privations and hardship.” Id. Nonetheless security issues arising from doublecelling and jail design are a conditions issue.
2

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 3 of 26

70a

cell observation establishes a conditions claim because the condition is pervasive
and does not involve any jailer’s acts or omissions.
Because Bell found double-celling was a “condition,” and because Kingsley
v. Hendrickson, 135 S. Ct. 2466 (2015) reaffirmed Bell and found that any
intentional act, even use of a taser, triggers Bell’s reasonably-related standard,
Kingsley at 2472; Plaintiffs’ challenge to double celling and jail design should be
governed by the Bell test. This is confirmed even by the dissent in Kingsley:
Bell endorsed this “reasonable relation” inference in the context of a
challenge to conditions of a confinement—specifically, challenges to
the State's policy of housing two people in each cell, and various
security policies. The conditions in which pretrial detainees are held,
and the security policies to which they are subject, are the result of
considered deliberation by the authority imposing the detention. If
those conditions and policies lack any reasonable relationship to a
legitimate, nonpunitive goal, it is logical to infer a punitive intent.
Kingsley at 2478 (Scalia, Roberts, and Thomas dissenting) (citations omitted).
The other challenges are to (1) the classification process, (2) the underfunding and understaffing of guards who perform rounds, and (3) the combination
of these including double-celling in a flawed jail design. The challenged conditions
within Clayton County Jail are not episodic omissions as opposed generally
applicable conditions for Bell’s purposes as shown immediately below, at §ii-iii.

3

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 4 of 26

71a

ii.

Facts Showing That The Challenged Jail And Door Design Of
The Multi-Celled Housing Units, And UnderfundingUnderstaffing Were Conditions Of Confinement.

The housing unit schematic (Johnson Dep. Ex. 5)2 and the photos3 show an
octagon-shaped housing unit with a central control tower surrounded by a “sally
port,” the open concrete area between the tower and the wall of the six pods, with
their dayroom of tables and their two tiers of eight cells, for a total of 96 cells per
housing unit. Lee Dep. at 11. The distance from “the control tower to the front
door of a cell” is about “70 to 80 feet.” Joe Lee Dep. at 12: 11-15.4
The cells have “closed front doors,” Southerland Dep. at 8:2-5, and a “small
window” at most about six inches wide. Johnson Dep. at 10:9-11; Samuel Smith
Dep. at 10:13-16; doc. 1-21 at 7 (picture of cell door). Officers cannot “see in a cell
from the control tower,” Tuggle dep. at 23:24-24:6, a fact confirmed by multiple

2

Undisputedly each of the eight housing units is designed in the same way.
Dec. of George S. Pearle, with seven photographs:
325 Outside of tower, sally port (floor between tower and pods) pods and cells
291 Inside of guard tower and to pod to cells
292 Inside tower to sally port to pod wall and doors of the two tiers of cells
295 Inside tower to sally port to pod wall and doors of the two tiers of cells
323 Back of sally port to guard tower to pod walls to cell doors
345 Inside sec. 2, Housing Unit 1, showing cell 2-10, (like HU 6, cell 2-10)
cell_block_panorama
Pod through dayroom to cells in upper and lower tiers.
4
When the cell doors are closed they are locked, and the cell doors can be
remotely unlocked by the control tower guard. Johnson Dep. at 10:12-17.
3

4

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 5 of 26

72a

officers.5 Officer K. Brown says that when and an in-cell fight occurs, an officer
“wouldn’t know [about it] unless somebody said something.” Dep. at 28.
Because there is no intercom or microphone in the cells linked to the tower,6
the control tower guard cannot hear into the cells, the tower guard is 70-80 feet
away, and there is a closed front door, a pod section wall bordered by the sally
port, and a wall around the guard tower between the guard and the interior of the
cell. See Jail photos, n.3 above. It is undisputed that from the control tower “you
can't really hear” what’s going on outside the tower or in the cells. Love Dep. at
12:4; see also Berg Rebuttal Report at 15 (must be “within the same pod ... to hear
an inmate calling out from a sleeping cell”).
It is undisputed that as a custom, rule and policy the detainees were locked
in their cells from evening through the morning each day. See e.g. Doc. 1-20 p. 16
(post-incident investigation statement, that during the incident “we were in lock

To see in a cell “the correctional officer would have to be right up near the
door and then peering to the side from the small window left and right.” Johnson
Dep. at 14:17-23. Tameika Smith confirmed you have to be within an “arm’s
length” to see in the whole cell. Dep. at 12:15-13:10. The “control tower officer”
cannot “see in all of the cells.” Tameika Smith Dep. at 19:21-23. From the control
tower one cannot see into cell 6-2-10. Tameika Smith Dep. at 19:24-20:21.
6
In each cell there is a buzzer or call-button but it does not allow the control
tower guard to hear into the cell, Johnson Dep. 22:21-24. There was one
handicapped cell per section that had an intercom allowing the control tower guard
to hear into the cell when activated. Johnson Dep. 22:5-18.
5

5

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 6 of 26

73a

down as usual”); Tameika Smith Dep. at 29:6-7 (when responding to the incident,
Grochowski and Brooks’ cell door was locked close).
The practice for years through 2012 was to have two guards stationed in
each housing unit, one in the control tower and one serving as a runner, Johnson
Dep. at 13:18-23; see also Daily Roster of 8/14/2012 (doc. 1-20 at 62), and the
long-term “policy” was for hourly rounds when detainees were in their cells.
Johnson Dep. at 13:24-14:16; see also Cash Dep. at 33 (round frequency policy has
“been [in] place since we moved into the jail”). As discussed below, p.24-25,
underfunding-understaffing was a pervasive condition at the Jail from the opening
through 2012.
In 2002 the Jail had 1,100 inmates, but from 2010-2012 average monthly
population was 1,500-1,900. See Monthly Reports (Sowell Dep. Ex. 15); Clayton
News Daily Feb. 18, 2011 (Kimbrough Dep. Ex. 18). Almost every inmate housed
in the eight housing units was multi-celled, with two or three inmates per cell, and
double celling was a “common practice” “from the day we moved in” to the Jail.
Southerland Dep. at 6:20-7:1.7

Johnson Dep. at 25:9-17 (“[I]f an inmate was a single person in a cell, it was
because his roommate left or the people who were assigned to the cell left and they
just happened to be there. We didn’t particularly assign a single person to a cell.”).
For example, Grochowski’s housing unit on August 14, 2012, averaged 1.96
inmates per cell. 175 of the 188 inmates in the housing unit were multi-celled, and
out of a total of 96 cells, 83 cells housed two or three inmates. Doc. 1-20 at 64-69.
7

6

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 7 of 26

74a

iii.

Facts Showing That The Jail’s Classification Process Celled
Non-Violent Detainees With Detainees Who Had A Prior
History Of Assaults And Mental or Emotional Issues.

The policy or practice for classification and housing was to classify
detainees with a violent/assaultive felony on their criminal history as maximum
(who are assigned a red suit) and everyone else as medium (orange suit), and then
everyone is double celled with the other detainees in their classification.
The classification officers separated into maximum and medium based only
on review of their criminal record, Hewitt Dep. at 7:9-19, without speaking to the
detainee. Baker Dep. at 6-7; Sheriff Kimbrough Dep. at 25; Expert Sweeney Dep.
p. 114:7-13. The classification officer reviews the criminal history and follows the
instructions on a classification tree (Baker Dep. Ex. 1), to determine maximum or
medium classification, Baker Dep. at 10:20-11:3, by classifying a detainee as
maximum if they had a current or prior “Violent/Assaultive Felony” or had a
history of escape, with everyone else being classified as medium. Baker Dep. Ex.
1; Baker Dep. at 14:18-23. In other words, the practice omits to consider
violent/assaultive misdemeanors on detainees’ criminal history, resulting in the
housing of detainees with record of assault with non-violent detainees.
After the classification into medium and maximum, the housing officers
determine a detainee’s cell placement, based solely on their med-max classification
and cell availability without any further “refinement.” Baker Dep. at 18 & 20-21;

7

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 8 of 26

75a

Maj. Cash Dep. at 20; McKibbins Dep. at 5:18-6:22 (housing officers “had nothing
to do with classification”). The housing officers never see or use the criminal
history information relied on by classification. Baker Dep. at 16-17.
When a detainee is first brought to jail there is a medical screening, done by
an employee of the medical contractor, CorrectHealth, see e.g. Brooks’ Medical
Intake (doc. no. 1-21 at 23-27), which includes a cursory face-to-face evaluation of
observable conditions and asking the detainee to self-report history of violence and
mental health history. See e.g. Brooks’ Medical Intake Form (doc. no. 1-21 at 25).
No information obtained by the medical intake process was passed on to the
classification officers. Hewitt Dep. at 9:11-10:1. The medical intake process has no
involvement in determining classification or whether potential cellmates are
compatible for safe housing, and other than placing detainees in the medical
infirmary, medical intake personnel “had no say in where they were placed or
which housing unit.” Rose Dep. p.22-23.
B.

The Purely Objective Standard Applies To The Challenged
Conditions -- As Opposed to the Subjective Standard under Farmer -And The Challenged Conditions Fail The Objective Test, Because of
Bell and Entity Liability Law.
i.

The Solely Objective Bell Test Applies In The Eleventh
Circuit, Because Plaintiffs Challenge Conditions Of
Confinement Which Are Deliberately Imposed.

Circuit case law which is binding holds that jail condition cases brought by
pretrial detainees are governed by the Bell standard as opposed to the subjective
8

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 9 of 26

76a

Eighth Amendment standard. Jones v. Diamond, 636 F.2d 1364 (5th Cir. Jan. 29,
1981) (en banc)8 held that “ [t]he due process clause accords pretrial detainees
rights not enjoyed by convicted inmates, [w]hile a sentenced inmate may be
punished ... the due process clause forbids punishment.” Id. at 1368 (citing Bell).9
Bell was reaffirmed in Kingsley v. Hendrickson, 135 S. Ct. 2466 (2015),
which reaffirmed Bell’s reasonably-related test, underscoring that that test, is
“solely an objective one.” Kingsley at 2473. The Court in Bell “did not consider
the prison officials’ subjective beliefs about the policy” and the Bell test does not
“involve subjective considerations.” Kingsley at 2473-74.10
ii.

Alternatively In Eight Amendment Conditions Case Law, An
Entity Can Be Liable Under An Objective Reasonableness
Standard, Without Proof That The Entity Or Its Agents Were
Subjectively Deliberately Indifferent.

8

In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir.1981) (en
banc), the Eleventh Circuit adopted as binding precedent all Fifth Circuit decisions
handed down prior to the close of business on 30 September 1981.
Jones is overruled on other grounds by Int'l Woodworkers of Am., AFL-CIO
& its Local No. 5-376 v. Champion Int'l Corp., 790 F.2d 1174 (5th Cir. 1986).
9
Jones is binding law because it has never been overruled by the Eleventh
Circuit en banc (nor has it been contradicted by the Supreme Court). See Marsh v.
Butler Cnty., Ala., 268 F.3d 1014 1024 n.5 (11th Cir.2001) (en banc) (“we do not
consider or decide en banc whether or how the Eighth and Fourteenth Amendment
standards differ.”); United States v. Steele, 147 F.3d 1316, 1318 (11th Cir. 1998).
10
The Ninth and Second Circuits agree that Kingsley shows that Bell’s
objective test, as opposed to Farmer’s subjective standard, applies to pretrial
detainees’ claims. See Castro v. of Los Angeles, 833 F.3d 1060, 1069-70 (9th Cir.
2016) (en banc); Darnell v. Pineiro, 849 F.3d 17, 35–36 (2nd Cir. 2017).
9

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 10 of 26

77a

Even in an Eighth Amendment case, an entity can be directly liable without
proof of subjective intent because entities lack mental states and therefore an
objective reasonableness or objective deliberate indifference standard applies.11
Although the Eleventh Circuit has not addressed this specific entity liability
issue, district courts have applied an objective reasonableness test to entity liability
in Eighth Amendment conditions cases.12
iii.

The Challenged Conditions Of Jail Design Preventing InCell Observation And Classification That Omits To
Consider Assaultiveness Fail Bell’s Objective Test.

Although Defendants argue that detainees’ privacy justifies the challenged
jail design preventing visibility into cell, Plaintiffs’ expert Michael Berg states that
“[w]hile privacy concerns are important, they do no[t] supersede safety and
security.” Berg. Rebuttal Rep. at 10. Defendants’ position was rejected in Caldwell
v. Bentley, 2015 U.S. Dist. LEXIS 31833 (M.D. Ala. Feb. 11, 2015) which found
that female guards conducting rounds may view potentially nude male inmates

See Farmer v. Brennan, 511 U.S. 825 (1994) (“‘[n]eedless to say, moreover,
considerable conceptual difficulty would attend any search for the subjective state
of mind of a governmental entity, as distinct from that of a governmental official”);
Mendiola-Martinez v. Arpaio, 836 F.3d 1239, 1248-49 (9th Cir. 2016) (policy
claim of shackling women during labor against an entity should be evaluated under
an objective deliberate indifference standard, similar to Monell and its progeny).
12
Vinson v. Clarke Cnty., Ala., 10 F. Supp. 2d 1282, 1294 & 1300-01 (S.D.
Ala. 1998) (Eighth Amendment claim directly against County is determined by an
objective standard); Buckley v. Barbour Cnty., Ala., 624 F. Supp. 2d 1335, 1345
(M.D. Ala. 2008) (same); Fields v. Prison Health Servs., No. 2:09-cv-529-FtM29DNF, 2011 U.S. Dist. LEXIS 99244, at *28-29 (M.D. Fla. Sep. 2, 2011) (same).
11

10

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 11 of 26

78a

because privacy rights of inmates are limited by the prison safety and security
interest. Caldwell at *88-96.13
Defendants may also argue that the money saved by multi-celling or by
underfunding-understaffing rounds is a legitimate penological interest, but “the
cost of protecting a constitutional right cannot justify its total denial.” Bounds v.
Smith, 430 U.S. 817, 825 (1977); Lareau v. Manson, 651 F.2d 96, 104 (2d Cir.
1981) (double celling out of observation of guards violated Bell because the “only
conceivable purpose” double celling serves is a “basically economic motive”).
Because neither privacy nor saving money is a legitimate penological goal
that is reasonably related to the challenged conditions (and/or the conditions are
excessive in relation to those goals), and because the challenged conditions are
contrary to the jail’s fundamental objective of safely “ensuring the detainee’s
presence at trial;” double-celling and understaffing within Clayton County Jail fail
the Bell test. See Bell at n.22 (“[S]ecurity measures may directly serve the
Government's interest in ensuring the detainee's presence at trial.”).
There is no legitimate penological reason for the challenged classification
process, which fails to ensure the detainee’s safe presence at trial, and is therefore

13

See Bonner v. Chambers Cty., 2007 U.S. Dist. LEXIS 54550, at *42 (M.D.
Ala. July 26, 2007) (Eleventh Circuit law regarding “an inmate's right to bodily
privacy has not been expanded beyond ... compelled nudity and masturbation”).
The reasoning throughout Bell as to conditions including room searches and
body cavity searches is that the limited privacy interest had to yield to security.
11

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 12 of 26

79a

an excessive response to any alleged legitimate penological purpose that
Defendants may assert justified their classification process.
C.

The Challenged Conditions Demonstrate An Unconstitutionally
Severe Risk of Injury By The Serious Risk They Pose.

Whether under the Eighth or Fourteenth Amendment the Constitution has
been applied to find a violation when jail or prison conditions pose an
unreasonable or unnecessarily substantial risk of harm. See Bell at n. 21 (harm
must be more than “de minimis”); Rhodes v. Chapman, 452 U.S. 337, 346 (1981)
(“unnecessary ... infliction of pain” such as “those that are ‘totally without
penological justification.’”) (citations omitted).14
i.

The Following Circuit Cases Reflect Conditions That
Established A Constitutional Violation, Similar To Those
Found In Grochowskis’ Case.

The Second, Seventh, Eighth, and Tenth Circuits agree that housing
detainees together without an ability for guards to detect assaults is a constitutional
violation under Bell or the Eighth Amendment standard.15 In McCreary v. Parker,

14

Rhodes found that double-celling is not per se unconstitutional, because
Plaintiffs failed to present any evidence that double-celling at the prison in
question caused any assaults. Rhodes, at 348. Moreover, there was no challenge to
the jail design, to understaffing, nor to classification, and “in all of the cells ... one
wall consists of bars through which the inmates can be seen.” Rhodes, at 341.
15
See Lareau v. Manson, 651 F.2d 96, 108 & n.11 (2d Cir. 1981) (“double
cells from which [detainees] can contact guards only with the greatest difficulty”
and “the inability of the guard to view the interior of the cells from his station
inside the bubble” was a severe risk of harm); Hart v. Sheahan, 396 F.3d 887, 894
(7th Cir. 2005) (double celling “out of sight and hearing of guards” during
12

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 13 of 26

80a

456 F. App’x 790, 2012 WL 205925 (11th Cir. Jan. 25, 2012) the Panel found
plausible a claim against a prison supervisor, who due to overcrowding “instituted
a policy of double-celling inmates who were in disciplinary or administrative
holding” that resulted in the attack on Plaintiff by his cellmate, because the
supervisor knew that overcrowding resulted in dangerous conditions and knew of
“the increasing frequency of inmate-on-inmate violence” but nonetheless
continued his double-celling policy. McCreary at *2-3.16
In Gates v. Collier, 501 F.2d 1291 (5th Cir. 1974) the Constitution was
violated by assaults caused in part by lack of classification “resulting in the
intermingling of inmates convicted of aggravated violent crimes with those who
are first offenders or convicted of nonviolent crimes.” Gates at 1308.17

lockdown one weekend a month); Jensen v. Clarke, 94 F.3d 1191, 1196-98 (8th Cir.
1996) (double-celling posed “a substantial risk of serious harm to all inmates in the
form of violence from cellmates,” shown by an increase in assaults corresponding
to an increase in double-celling, and “anecdotal evidence” that “the violence
institution wide carried over into the double cells”); Lopez v. LeMaster, 172 F.3d
756,762 (10th Cir.1999) (understaffing prevented continuous observation, and
“there was no TV monitor, no guard in sight, and no way to call for help”).
16
See generally Jenkins v. DeKalb Cty., 528 F. Supp. 2d 1329, 1338 (N.D. Ga.
2007) (Thrash, J.) (Although not the dispositive issue the Court found a substantial
risk of serious injury caused by double-celling a violent cellmate with the
plaintiff’s decedent. “See Johnson v. California, 543 U.S. 499, 526-527
(2005) (Thomas, J., dissenting) (‘[D]ouble cells are especially dangerous. ... [A]nd
the tightly confined, private conditions of cells hazard even more violence.’).”).
17
See also Marsh v. Butler Cnty., Ala., 268 F.3d 1014, 1029 (11th Cir.
2001) (failure to separate non-violent inmates from violent inmates); Jones v.
Diamond, 594 F.2d 997, 1019, 1016 (5th Cir. 1979) (should be a classification
“policy which protects pretrial detainees from violent, disturbed, and contagiously
13

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 14 of 26

81a

ii.

Facts Showing The Severity Of The Danger From Multi-celling
Without Continuous Observation And In-Cell Assaults.

Based on the jail’s disciplinary records, between 2010 and 2012 there were
at minimum 115 in-cell assaults, which was at least about 35% to 40% of the total
number of assaults (both in and out of cells). See Batson Dec. Defendant’s expert
stated that the jail he previously ran had a 15% in-cell assault rate, and he admitted
that a 35% rate is “high.” Sweeney Dep. at 135.
Major Cash admits that under the challenged conditions at the Jail there is no
way to prevent in-cell assaults. She is asked whether, after an in-cell detainee-ondetainee assault, there is an investigation “that addresses how to have prevented the
assault in the first place,” and Major Cash explains in relevant part: “there's not a
practice to prevent it because there's not. There's no way to do that.” Dep. at
31:23-32:10 (emphasis added).

ill individuals as far as reasonably possible.”); Richko v. Wayne Cty., Mich., 819
F.3d 907, at 915-16 & 919-20 (6th Cir. 2016) (“the risk to [inmate] Horvath of
being housed with and attacked by an inmate who had recently been arrested for
violent assault and had a history of serious mental illness was sufficient to fulfill
the objective component of” the constitutional analysis); Marsh v. Arn, 937 F.2d
1056, 1062 (6th Cir. 1991) ("Failure to segregate violent inmates from non-violent
inmates” is objectively severe “where there is a 'pervasive' risk of harm or where
the victim belonged to an 'identifiable' group of prisoners for whom risk of assault
is a serious problem of substantial dimension.").
14

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 15 of 26

82a

Defendants, their agents, and their expert admitted that in-cell assaults can
result in “serious” injury.18 Plaintiffs’ expert agrees that double-celling within the
challenged jail design and understaffing prevents continuous observation and
creates unsafe conditions. See Berg Expert Report at 7,10; Berg Dep. at 75:2-24.
There should be an additional one to two guards per housing unit to allow for
continuous rounds. Berg Expert Report at 8.
The Jail Design Guide, 3rd Edition (2011) (Sweeney Dep. Ex. 17), “Single
Versus Multiple Occupancy” housing, sec. 4, ch. 27, p. 305-310, canvasses the
pros and cons between building for single or multiple celling: “On balance ...
security ... capabilities are compromised to attain the construction cost savings of
multiple-occupancy settings. Once compromised these critical capabilities may be
lost for the life of the jail, which could exact a toll on the jail staff and inmates.”
Jail Design Guide at p.308. These concerns were obvious to the County and Sheriff
before building the current Jail and they remain true today.

See Cash Dep. at 8:5-10 (“as a result of inmate in-cell fights, one or both
people can be seriously injured ... in a short amount of time”); Sweeney Dep at
142:6-11 (“when a fight starts serious injury can result to either party” and “[i]t can
happen quickly ... [in] two, three minutes”); Kimbrough Dep. at 19:14-20 (“in any
fight serious injury can occur”); Sowell Dep. at 12:13-15 (“obvious” that “a person
can get hurt pretty seriously in a fight”); Southerland Dep. I at 7:7-10: (“an in-cell
fight can result in serious injuries to an inmate”); Johnson Dep. at 22:25-23:7
(“somebody sometimes is severely injured”).
18

15

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 16 of 26

83a

Applicable Georgia Jail standards require guards to be able to observe
detainee living areas or be contacted by detainees at all times.19
The subset of detainees who were double-celled in the Jail were housed in a
condition posing a substantial risk of serious injury for no legitimate penological
purpose, because there was no ability for continuous observation.
iii.

Facts Showing The Classification Process Was Unreasonable
And Grossly Inadequate, Posing A Substantial Risk Of Harm of
Detainees Being Double-Celled With Assaultive And Unstable
Detainees.

Additionally, and in combination with the challenged facility and staffing
conditions, the challenged classification process constituted a severe deprivation,
and created a substantial risk of serious injuries for the class or subset of detainees
who were housed with detainees with a history of assault or recognizable mental or
emotional issues.
The classification process did not separate detainees with violent/assaultive
misdemeanors on their criminal history, from detainees with a non-violent criminal
history, causing them to be housed together. See citations above, at § 1 (A) (iii).
Defendant’s expert admits that the most important distinction for a classification
system is between “those who have demonstrated a propensity for violence and

The 2008 Georgia Jail Standard, §23.17, (Sweeney Dep. Ex. 27): “Facility
control posts shall be located in or immediately adjacent to inmate living areas to
permit officers to hear and respond promptly to calls for help.” Similarly, “Inmates
shall be able to contact detention staff at all times.” Id. at § 23.22
19

16

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 17 of 26

84a

those who have not, based on their charges and their history.” Sweeney Dep. p.
118. Accord Plaintiffs’ Rebuttal Expert Report at 2-3. The Jail’s SOP’s provide:
“Classification Section Personnel shall review” the criminal charges for a
“nonviolent Misdemeanor.” Jail SOP no. 3.01 p.2. A Jail’s “own internal policies”
can provide evidence of substantial risk of injury when there is a practice of
violating the written policy.20
As discussed above, at § 1 (A) (iii), the classification process did not rely on
a face-to-face evaluation of detainees and their demeanor to detect low mental
functioning and emotional instability, which causes a substantial risk for
incompatibility for double celling. Berg’s Expert Report at 8. Defendants’ expert
Sweeney does not dispute that there should be a face-to-face evaluation for
classification and housing purposes. Sweeney’s Expert Report (doc. 125-1) at 5.
The Jail’s own S.O.P’s require a face-to-face evaluation of a detainee’s mental or
emotional state for purposes of classification and determining “[i]f the inmate

20

See Bass v. Pottawatomie Cty. Pub. Safety Ctr., 425 F. App'x 713, 720 &
n.2 (10th Cir. 2011) (finding entity liability and severity of harm from inmate-oninmate assault in the absence of any priors because: “based on the evidence
introduced at trial regarding the State of Oklahoma's Minimum Jail Standards and
the Jail's own internal policies requiring close supervision of unclassified
detainees, we believe the jury, relying on its own common sense and intuition,
could reasonably infer that the Jail maintained a policy and/or custom that was
deliberately indifferent to a substantial risk that commingled intoxicated detainees
such as Mr. Bass would be assaulted and seriously injured.”).
17

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 18 of 26

85a

appears to be violent or nonviolent ... [and] appears to be emotionally stable.” Jail
SOP no. 3.01 p.2.21
The classification process was also inadequate because it did not take into
consideration Brooks’ youth nor the troublesome behavior reflected by Brooks’
arrest and criminal history. See Berg Expert Report at 8-9.
In combination the challenged conditions involving the facility, staffing, and
classification as applied to the subset of detainees who were double-celled with
inadequately classified detainees, i.e. those with a history of assaults or
recognizable emotional or mental issues, created a substantial risk of serious injury
from in-cell assault. Moreover, as applied to the subset of the hundreds of
detainees who were double-celled with assaultive detainees who did assault them,
see Batson Dec., the challenged conditions in combination constituted a substantial
risk of serious injury from in-cell assault.
2.

The Unconstitutional Conditions Caused The Assault and Death.
As explained in LaMarca v. Turner, 995 F.2d 1526, (11th Cir. 1993), a

prison conditions case, the causation requirement between condition and harm is

21

The classification process was inadequate because the face-to-face
evaluation that did occur during the medical intake, relied on a detainee’s
unverified self-report of whether he had a history of violent behavior, without
checking or cross-referencing the detainee’s readily available criminal history.
Defendant’s expert admits that it is improper to rely on an inmate’s self-report
about prior assault because it needs to be verified via the criminal history. Sweeney
Dep. at 55. Accord Plaintiff’s Expert Report at 12.
18

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 19 of 26

86a

straightforward and “the defendant is ‘precluded from contending that the
unconstitutional condition was not at least a proximate cause of . . . injuries’ that
arose from that condition.” LaMarca at 1538 (citation omitted).
A.

The Challenged Jail Design And Understaffing Caused The Assault.

If the jail had single-celled detainees, then causation is straightforward,
because Brooks would not have been celled with Grochowski, and there would
have been no assault. If the jail design and layout including the cell windows
allowed for continuous observation to the cell interior from the guard tower, or if
the jail had been staffed for continuous rounds, then Grochowski would not have
been assaulted. Plaintiff’s Expert says that continuous rounds would “more likely
than not” have prevented the assault on Grochowski. Berg Expert Report at 8.
B.

Inadequate Classification Process Caused The Assault

The challenged unconstitutional classification condition, as applied to
Brooks and Grochowski, caused them to be double celled together, causing the
assault and death. If the challenged classification condition had not
unconstitutionally disregarded prior violent misdemeanors and face-to-face
evaluation for emotional instability and low mental functioning, then Brooks and
Grochowski would not have been double-celled, which would prevent the assault.
The record of Grochowski, 57 years old then, reflects no assaultive
tendencies. See Baker Dep. Ex. 2 at 2-31; Sweeney Dep. at 119:6-10 (conceding).

19

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 20 of 26

87a

Brooks, who became an adult in 2009, and whose juvenile record was not
available, had a criminal record beginning with a 2009 arrest for misdemeanor
battery, resulting in a conviction for “affray (fighting).” Doc. 1-21 at 53-54.
Brooks was arrest in January 2012 for fraud, felony burglary, and resisting, that
resulted in a conviction. Doc. 1-21 at 56-57. While in Henry County Jail Brooks
was charged for “affray (fighting)” on May 29, 2012. Doc. 1-21 at 53-54.22 Brooks
was also arrested July 31, 2012 for theft by receiving, false name, suspended
license, under a Florida fugitive warrant. Doc. 1-21 at 72, 12, 40.
Grochowski and Brooks were both classified as medium pursuant to the
customary but deficient classification process, because neither had a prior or
current violent/assaultive felony. Baker Dep. at 14, 19-20; Baker Dep. Ex. 2 & 4.
Consideration of misdemeanor assaults would have caused Brooks and
Grochowski to be housed separately. Pursuant to the challenged classification
process, described above, at § 1 (A) (iii), there was no face-to-face evaluation of

22

While Brooks was in Jail in Henry County in late May he demonstrated he
was unsuited to be double-celled by disruptive, emotionally unstable behavior
causing an in-cell fight. Had there been a face-to-face interview with access to
criminal records by the official the “affray” would have been considered and the
officer would likely have learned of the circumstances of the affray.
In an argument with his cellmate about in-cell alone time the records show
that Brooks escalated the argument, spitting in his cell mate’s face and throwing a
cup at him, resulting in a serious fight, and in the cellmate and other reporting that
Brooks was “‘throwed off’ describing Brooks’ mental state.” See Henry County
Incident Report at p.5 of 15.
20

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 21 of 26

88a

Brooks and therefore Brooks was placed in Grochowski’s cell “for no specific
reason” by Officer McKibbins. Dep. at 5-6. An adequate face-to-face interview
with a corrections officer would have prevented the Brooks from being housed
with Grochowski. See Berg Report at 8-9 (relying on Brooks’ videos after assault).
On August 14, while Brooks and Grochowski were in their double-cell
together, Brooks’ assaultive tendencies and emotional instability caused him to
start a fight over a piece of candy with Grochowski and caused the death of
Grochowski. See Waites Dep. at 7-20 (discussing report, doc. 1-20 at 3-13).
3.

Clayton County Is Liable Under Monell And Its Progeny.
The County is liable for the challenged conditions of the facility, lack of

possible continuous in-cell observation by deliberate design, built and sized to
double cell, dangerous classification driven by jail sizing to double cell,
underfunding causing understaffing and housing unit closings, that culminate in an
excessive and substantial risk of undetected, serious in-cell assaults, because the
challenged conditions were caused by Clayton County’s official policies or
persistent and widespread practice or customs. Alternatively or additionally the
County was objectively deliberately indifferent to and had actual or constructive
notice of, the challenged unconstitutional jail conditions. Monell’s requirement of
“a direct causal link between the municipal action and the deprivation of federal
rights" Fields v. Corizon Health, Inc., 490 F. App'x 174, 185 (11th Cir. 2012), is
21

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 22 of 26

89a

satisfied because the County’s policies and practices, the double-celled jail-design
and underfunding-understaffing, are the same as or closely related to the
challenged unconstitutional jail conditions posing a severe risk of in-cell assault.
Because the County had three jail-related duties – construction and
maintenance of the “jail and “cells” (O.C.G.A. §36-9-5(a)-(b)), “reasonable
fund[ing]” of the Sheriff’s department (Op. and Order (doc. 57) at 9), and funding
and contracting with CorrectHealth, the County can be held responsible for the
challenged conditions.23
A.

The Challenged Conditions Were County Policies And Practices.

There is “no meaningful difference” between a “condition” for Bell’s
purposes and a policy or custom for Monell’s purposes. Duvall v. Dallas Cnty.,
Tex., 631 F.3d 203, 208 (5th Cir. 2011). The condition-evidence above of jail
design, underfunding-understaffing, and double-celling, establishes a Monell
practice because they are “persistent” and “widespread.” Church v. City of
Huntsville, 30 F.3d 1332, 1345 (11th Cir. 1994).

23

Plaintiffs are preserving, for response to summary judgment, arguments that
(1) the County is liable, pursuant to its funding and contracting duties, for
CorrectHealth’s challenged policy or practice of inadequate classification, and (2)
the County is responsible for medical related conditions, maintaining the inmate,
and medical care that identifies and treats conditions related to assaultiveness.
22

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 23 of 26

90a

The challenged condition of the jail design and double celling is also an
official policy under Monell.24 Before construction of the jail in 2000, then-Sheriff
Tuggle and agents of the County Commission “discussed” single celling, but
decided against it in order to save the money, according to Tuggle who served as
Sheriff from 1997 through 2004. Tuggle Dep. at 22:3-16; id. at 25:9-17.
“Decisions” about the jail design “including the doors and certain equipment” were
made by “stakeholders from the County” in discussion with the architect and
contractor. See Joe Lee Dep. at 8: 1-5.
The Jail was also underfunded-understaffed, closing a housing unit at the
relevant time which prevented single-celling of troublesome inmates and adequate
staff and rounds and constitutes a Monell policy. Anderson v. City of Atlanta, 778
F.2d 678 (11th Cir. 1985).
B.

Notice Showing Clayton County’s Culpability

The Eleventh Circuit explains “that a municipality has made a deliberate
choice among alternative courses of action, [if] its policymakers ... had ‘actual or
constructive notice that the particular omission is substantially certain to result in

24

Accord Castro v. Cty. of L.A., 797 F.3d 654, 671 (9th Cir. 2015) (Designing
a jail is “‘a deliberate choice . . . from among various alternatives.’ Construction
projects ... choices based on ... functionality, budget, and other factors. ... [t]he
municipality's governing body—or a committee that it appoints to act in its stead—
reviews bids, considers designs, and ultimately approves a plan for the facility and
allocates funds for its construction.”) (citing Pembaur v. City of Cincinnati, 475
U.S. 469, 483 (1986).
23

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 24 of 26

91a

the violation of the constitutional rights of their citizens.’” Young v. City of
Augusta ex rel. DeVaney, 59 F.3d 1160, 1172 (11th Cir. 1995).
Kimbell v. Clayton Cty., No. 1:03-CV-2910-JEC, 2005 U.S. Dist. LEXIS
48698 (N.D. Ga. Sep. 27, 2005), at *38-41, put the County on notice that they had
a practice of under-funding and understaffing the Jail based on letters from Sheriff
Tuggle from 2000-2004. His letters to the County (Tuggle Dep. Ex. 17) confronted
short-staffing causing housing unit closures, which eliminated classification and
housing “in a way most courts of review consider acceptable,” putting “staff,
inmates or the public at risk.” Dep. Ex. 17 (Letter dated May 2, 2003).
In 2011 and early 2012 Defendant Sheriff told the Commission one housing
unit was closed “due to safety concerns because of understaffing” and requested
more staff, which had not been increased since 2000. February 18, 2011 Clayton
News Daily (Kimbrough Dep. Ex. 18); February 10, 2012 Clayton News Daily
(Kimbrough Dep. Ex 17). A housing unit remained closed through the August
2012 assault. See Jail Roster (doc. 1-20 at 62).
A County website says to single cell more “troublesome” inmates with an
“ideal” jail capacity of 1,544. Kimbrough Dep. Ex. 16; p.7:8-10. Similarly, the
Jail’s SOP’s call for a Security Segregation unit for heightened supervision if
“[t]he inmate has or is displaying violent behavior.” SOP NO. 3.03. Becuase of the

24

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 25 of 26

92a

challenged condition of double-celling all of the housing units were double-celled
and there was no security segregation unit for assaultive or troublesome inmates.
The County was previously sued in 2010 for a 2008 in-cell assault; that went
unseen throughout the night, by a detainee placed in “administrative segregation ...
out of concern for their own safety or the safety of others,” against an elderly man,
with whom he was celled without regard to the risk of assault. Goodman v.
Kimbrough, 718 F.3d 1325, 1329 (11th Cir. 2013); N.D. Ga. No. 1:10-cv-03066AT. Goodman’s injuries required treatment in the “intensive care unit ... for seven
days, and ... two to three weeks in the Jail infirmary.” Goodman, 718 F.3d at 1330.
The Complaint alleged and Defendants admitted:
No changes were made to Jail policies in response to the assault on
Goodman, despite Defendant policymakers’ actual notice that their
policies of multi-celling, understaffing, and under-monitoring caused
a serious cell-mate assault to occur, ... where serious injury can occur
in a matter of the first few undetected blows.
Am. Compl. (doc. 73) at ¶42; County’s Answer (doc. 75) at ¶42. Notice is also
shown to Commissioners by the obviousness of the problems and risks created by
design and underfunding.25

25

It is obvious that an officer who cannot see into the cell cannot respond to an
in-cell problem. Tuggle Dep. at 24-25. “[O]bvious” that detainees will get into
fights if allowed. Id. at 24:7-14; Sowell Dep. at 12:9-12; Samuel Smith Dep. at
18:21-23. It is “obvious” that “a person can get hurt pretty seriously in a fight.”
Sowell Dep. at 12:13-15. It is likely that when attacked in-cell, a detainee will
“fight or flight” and will foreseeably respond with force. Cash Dep. at 34:4-35:6.
See also Berg Expert Rep. at 4 & 7 & 9.
25

Case 1:14-cv-02586-TWT Document 142-1 Filed 05/18/18 Page 26 of 26

93a

Respectfully submitted this 18th day of May, 2018.
/s/ John P. Batson
John P. Batson
Ga. Bar No. 042150
Attorney for Plaintiffs
I certify that this brief was prepared in word in 14 point, Times New Roman
font.
/s/ John P. Batson
John P. Batson
Ga. Bar No. 042150
Attorney for Plaintiffs

26

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 1 of 17

94a

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONALD GROCHOWSKI, et al.,
Plaintiffs,
v.
CLAYTON COUNTY, GEORGIA, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Civ. Act. No. 1:14-cv-02586

MICHAEL A. BERG
RESPONSE TO EDWARD SWEENEY REPORT
Here within is my response to the statements made by Edward Sweeney in his report
and deposition regarding the Donald Grochowski matter.
EDWARD SWEENEY JANUARY 16, 2018 REPORT
Classification
● Mr. Sweeney states that NCCHC (National Correctional on Correctional
Health Care Standards) and ACA (American Correctional Association
Standards) are “High Water” marks for the correctional industry. He also
states that these standards are not the only measure of constitutionality for
corrections.
o Comment: NCCHC and ACA standards are more than “High Water”
marks – they are considered the best practices for the corrections
business. Whether accredited or not, corrections agencies should strive
to achieve as many of these standards as possible. Further, the
constitutionality of any operation is certainly more likely when these
standards are strived for and hopefully achieved.

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 2 of 17

95a

● Mr. Sweeney indicates that unless medical imposes housing restrictions for
an inmate, it is acceptable for housing officers to make cell assignments for
inmates similarly classified.
o Comment: This is only true if the Classification section has done an
acceptable evaluation of the inmates involved and has not imposed any
housing restrictions on the inmate/s in question. In Grochowski, this
was not the case. The classification and housing assignment as to
Grochowski and Brooks occurred only by a Classification officer
applying the Initial Classification Form which only distinguishes
classifications based on whether the criminal record showed a felony
assaultive charge as opposed to misdemeanor or non-assaultive
charges, with other relevant factors not being considered. Inadequate to
say the least. Housing unit correctional staff should not be making cell
assignments. A Classification unit is a crucial part of any facility’s
effort in providing a safe and secure operation. Assaultive behavior has
to be a major consideration factor. Brooks had a well-known assaultive
history in roughly a three-year period. Mr. Sweeney contradicts himself
when he says correctional officers do not have access to criminal
history information, classification files or medical considerations – but
then in the same report indicates that these same officers can make cell
assignments. Cell assignments and inmate movement should happen
only at the direction of Classification. Sweeney also suggests that an
Objective Classification system takes the subjectivity out of housing
assignments, but then states that housing unit personnel can make cell
assignments without having all needed inmate information – subjective
– most assuredly. It has been reported in numerous articles and studies
pertaining to effective classification systems (to include validated
systems) that a “subjective” classification system is not the accepted
standard or practice. The articles are mentioned below.
● Mr. Sweeney indicates that the Clayton County Jail classification process was
acceptable.
o Comment: Not at all true. Grochowski and Brooks were only
considered by Classification by reviewing NCIC and GCIC criminal
histories. Sweeney states that Clayton County’s classification system
was acceptable even though Stability Factors were not considered. In
all objective classification systems, Stability Factors refer to age,
marital status, employment, etc. Mr. Sweeney errs here again because
2 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 3 of 17

96a

if Clayton County only considered whether the criminal records of
Brooks or Grochowski reflected a violent felony were Brooks and
Grochowski were not compatible cell mates – the criminal history
showed Brooks was violent and Grochowski was non-violent.
● Mr. Sweeney writes that the Clayton County, Georgia Classification System
was adequate.
o Comment: This is not at all true. If Clayton County had a true Objective
Classification System, they would have considered more than criminal
history, violent or non-violent. The Classification Form or instrument
(The Classification Tree or The Triangle) used by Clayton County is
not nearly as comprehensive as those used in 2012.Additionally,
Clayton County did not address even the factors listed on the form,
under the heading “High Risk Flags” and “Special Condition Flags.”
Information that was known and clearly available such as Brooks’
assaultive behavior given his criminal record, his age, and his demeanor
or answers during a face to face interview, should have been considered
and impacted the classification and housing assignment of Brooks.
● Mr. Sweeney states that Classification “stabilization factors” should only used
to downgrade classification level determinations for a specific inmate.
o Comment: This is not at all accurate. Stabilization factors should be
used to accurately classify an inmate upward or downward as deemed
appropriate by objective measures, but more importantly, to ensure the
safety for all concerned.
● Mr. Sweeney also states that the stabilization factor of “age” is only
considered if it triggers a protective custody, as if to say the only situation in
which age is a factor is when a youthful, vulnerable offender may be housed
with an adult. Sweeney indicates that for Brooks and Grochowski, age did not
trigger this concern. Sweeney further states that my opinion about Brooks
being a threat to his cell mate is wrong and the reverse (Grochowski being a
threat to Brooks) was more accurate. Sweeney also states that “many larger
systems also try to ensure that inmates are not housed by such characteristics
such as age and race.”
o Comment: Once again, Mr. Sweeney is wrong. For systems that use an
objective Classification system, youthful offenders are always
3 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 4 of 17

97a

considered more aggressive or dangerous and unpredictable than
inmates of Grochowski’s age. Further, systems, large or small, that use
objective classification consider “age” an extremely important factor
for housing considerations.
In support of my position on the Objective Jail Classification System, I offer the
following nationally recognized publications pertaining to the utilization of an
Objective Jail Classification System:
● National Institution of Corrections; Objective Jail Classification Systems: A
Guide for Jail Administrators
● Texas Department of Criminal Justice, Correctional Institutions Division; The
Advantages of an Objective Classification System
● Northpointe, Institute for Public Management, Inc.; Classification
Implementation Manual for Smaller Jails
● Corrections.com; A look at Subjective and Objective Classification
● The National Sheriff’s Association; Jail Classification and Discipline
● National Institution of Corrections; Internal Prison Classification Systems,
Case Studies in Their Development and Implementation
● National Institution of Corrections; Comprehensive Objective Prison
Classification, Participant Manual
● National Institution of Corrections; Objective Prison Classification, A Guide
for Correctional Agencies
● National Institution of Corrections; Classification of High-Risk and Special
Management Prisoners, A National Assessment of Current Practices
● Native American and Alaskan Technical Assistance Project; Project Guide:
Objective Classification Analysis
As an example, some of the language found in these documents includes:
National Institution of Corrections; Objective Jail Classification Systems: A Guide
for Jail Administrators:
“Initial Custody Assessment (Classification)
Each jail should determine the factors used to establish an inmate’s most
appropriate custody level, or classification. The most common factors used
are:
o Severity of current charges/convictions;
4 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 5 of 17

98a

o
o
o
o
o
o

Serious offense history;
Escape history;
Institutional disciplinary history;
Prior felony convictions;
Alcohol/drug abuse;
Stability factors (e.g., age, employment, length of residence).”

Note: Age is one of the stability factors and is considered extremely important.
Clayton County and Mr. Sweeney did not consider it an important factor. In the same
document it states:
“Factors that Drive the Initial Classification Instrument
The stability factors are also significantly related to the custody rating, but a
higher stability score increases the likelihood of a lower custody designation.”
In the Texas Department of Criminal Justice document it is stated:
“Regardless of its size and complexity, a jail’s primary responsibility is to
safely and securely detain all individuals remanded to its custody.
Classification is an essential management tool for performing this function.
By definition, classification is the process of placing things or people into
classes according to some rational idea or plan. A good system of classifying
inmates will reduce escapes and escape attempts, suicides and suicide
attempts, the unnecessary incarceration of non-threatening prisoners, and
unwarranted inmate-on-inmate assaults. All of these outcomes conserve
valuable resources by reducing expenditures for legal fees and court costs,
overtime pay, and medical expenses.”
and
“Objective inmate classification contributes to efficient jail operations.
Information about the inmate is collected and a program is developed based
upon custodial requirements and the inmate’s needs. An orderly method is
furnished for assessing the varied needs and requirements of each inmate,
from commitment to release.”
and

5 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 6 of 17

99a

“When conducting a reassessment, several considerations must be kept in
mind. Since the original classification was based on objective information that
is recognized and accepted by the courts, the reassessment must be an
extension of the initial or primary classification. To do this, the reassessment
should consider all of the objective criteria that was used during the first
assessment in addition to any new information that may be available either
due to the period of time that has elapsed since the last classification or by an
incident or status change triggering the review.”
In the Northpointe document, Classification Implementation Manual for Small Jails,
it is stated:
“Jail administrators are increasingly aware that correct classification is
a powerful means of avoiding public embarrassment, maintaining good
public relations, and avoiding damaging litigation (NIC, 1985) and that
erroneous or careless classification can produce public relations
disasters. Classification procedures should provide a paper trail that
simplifies the ability to demonstrate the degree to which staff
followed official procedures.”
and
“Conversely, if a jail adopts OJC and then fails to follow its own procedures,
it again becomes more vulnerable to litigation. Weak or partial
implementation may be a particular challenge for small jails because of
inadequate training, staffing, and resources. Managers of small jails can help
reduce liability by taking the following actions:
1. Maintain a current awareness of court decisions regarding
classification;
2. Maintain a vigilant and proactive “problem identifying” style using
appropriate monitoring and supervision of classification operations so
that deficiencies or problems are quickly identified and solved. This
relies on a systematic process to identify problems and develop plans
to address them;
3. Maintain an up-to-date policy and procedure manual that specifies
standardized OJC procedures for staff to follow; and
6 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 7 of 17

100a

4. Maintain and implement adequate staff training in OJC and use
supervision
procedures to maintain the skills and competency of staff.”
and
“The courts have identified objective classification as a way of ensuring
consistent and equitable placements for both housing and program access
(Gettinger, 1982). The high over classification error rate of subjective
classification is simply more likely to lead to highly inconsistent decisions.
Invalid classification methods invariably undermine consistency, fairness,
and equity. The continuing use of informal and oversimplified methods of
classification and untrained staff are both likely to produce errors of
classification that may undermine equity and fairness.”
and
“As noted earlier, the courts identified classification as “a prerequisite for the
rational allocation of whatever program opportunities exist within the
institution.” Classification is also at the core of rational resource allocation.
Correct matching of inmates to services (vis á vis security level, housing
assignments, treatment programs, etc.) is the foundation of efficient resource
allocation.”
and
“All “keep-separate” decisions should be driven by information collected by
classification staff during the initial classification process. Safety is a major
priority in all institutional classifications. Failure to separate predators from
victim types may result in violent victimization, an unsafe environment,
anxiety, and lawsuits. Classification must be carefully linked to the
differential supervision of the more dangerous inmates at different custody
levels. Suicide screening procedures similarly attempt to identify the high
suicide risk and provide appropriate surveillance and treatment. The courts
have seen classification as a guarantor of the right to be protected from violent
assault and the fear of violence (Tonry, 1987). Reducing fear and anxiety
relies on the ability of classification to produce valid separations of inmates
at different risk levels. Classification thus plays a role in producing an orderly,
safe, predictable, and controlled environment, which should reduce anxiety
despite the presence of dangerous persons.”
7 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 8 of 17

101a

and
“The starting point for coping with such safety threats is the identification of
dangerous offenders by means of a careful initial classification process.”
and
“A driving force has been the recognition that classification is a basic
decision-making process that supports most of the correctional policy goals
of any jail or prison. This is profoundly illustrated by a l970 Rhode Island
court decision (see Gettinger, 1982) that clearly indicates the multiple roles of
classification in both jails and
prisons:
Classification is essential to the operation of an orderly and safe prison.
It is a prerequisite for the rational allocation of whatever program
opportunities exist within the institution. It enables the institution to
gauge the proper custody level of an inmate, to identify the inmate’s
education, vocational, and psychological needs, and to separate nonviolent inmates from the more predatory. Classification is
indispensable for any coherent future planning.”
and
“Specifically, correctional classification systems have moved away from socalled “subjective” models to “objective” systems. Subjective models tend to
reply on informational criteria that often lead to inconsistency and error in
staff decision making. Conversely, objective systems depend on a narrow set
of well-defined legal factors (e.g., age, marital status, etc.). These items are
weighted and assigned differential values within a well-defined instrument
that is then used to assess an inmate’s level of risk or program needs.
Objective systems place greater emphasis on fairness, consistency, and
openness in the decision making process.”
In the Corrections.com document, “A look at Subjective and Objective
Classification”, it reports:
“It is said that the California Department of Corrections and the Federal
Bureau of Prisons were the pioneers in using objective classification systems
8 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 9 of 17

102a

before 1980. Since then, virtually all-50 states as well as Puerto Rico and the
Virgin Islands have fully implemented objective systems.”
NIC’s manual on Objective Jail Classification Systems is used in all fifty states and
is considered the national standard. This system has also been widely supported by
the Courts across the country.
Mr. Sweeney would have one believe that Clayton County’s classification system,
which was based essentially on whether the detainee’s criminal history showed a
violent or assaultive felony as opposed to a misdemeanor assault, was acceptable.
Mr. Sweeney also states that the Clayton County system is patterned after the
Northpointe design. These opinions are not accurate. Both the NIC Objective Jail
Classification guide and Northpointe’s are detailed and comprehensive, but Clayton
County’s was not. The pertinent considerations, such as Brooks’ youth, his history
of misdemeanor assaults, and the answers or demeanor he would have presented
during a face to face interview was available to Clayton County, but they chose not
use it.
Facility Design, Security, And Staffing
● Mr. Sweeney states that the window glazing used for Clayton County Jail Cell
610 was adequate because it was designed by the architectural firm of HOK
and is a standard size for the industry.
o Comment: HOK is just an architectural firm that designs jails for
government agencies. Generally, window glazing size is a
determination made by the agency and their design team. These
determinations should be based on line of sight and continuous
observation objectives, however at times these decisions are driven by
budget constraints, as glazing is extremely costly. When designing
sleeping cell doors, it is particularly important to achieve optimal
visibility from the pod control center. This remote surveillance ability
is of the utmost importance to jail security and staffing levels. When
this visual monitoring from the control center is impossible, as it was
at the Clayton County Jail, the absence of sight line has to be overcome,
for example, by providing continuous observation by roving staff
members, a costly solution to say the least.
● Mr. Sweeney indicates that the window glazing was appropriate because it
allowed for the privacy provisions found within the PREA standards.
9 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 10 of 17

103a

o Comment: This position misrepresents PREA. While privacy concerns
are important, they do no supersede safety and security. Many agencies
have addressed PREA standards by designing and/or installing privacy
panels or shields. PREA standards and other privacy measures are well
published and very achievable for correctional administrators. If
instituted correctly, inmate privacy issues like strip searches,
showering, clothing change out, and toiletrine can be accomplished,
and must be, but this has nothing to do with window glazing size. These
provisions must be accomplished regardless. Mr. Sweeney’s position
on privacy issues relating to the window size and electronic monitoring
cameras is further refuted when it is known that most of the privacy
concern activities take place in open areas of booking, dayrooms,
shower areas, lavatory areas and open housing areas where visibility is
wide open. In these same areas within the Clayton County Jail, cameras
and personnel are always present and privacy issues still must be
addressed. When determining the appropriate size of window glazing
safety, security and optimal visibility must be the driving motivations
for jail administrators. When addressing PREA, these provisions must
be addressed regardless of facility design.
As for electronic monitoring cameras, Mr. Sweeney also addresses
privacy concerns here, particularly for their use in sleeping cells.
Electronic monitoring (cameras) are commonly used throughout jail
facilities and have been for years. The privacy concerns that Mr.
Sweeney addressed with window glazing are the same with video
surveillance. These cameras are commonly found focusing on inmate
areas where there are varying stages of undress, showering, toiletrine
and clothing change out are taking place. Privacy concerns have long
been addressed regarding the use of cameras in those areas just as they
could be in sleeping cells. In fact, more and more frequently, today’s
jail administrators are or are considering the use of cameras in all lock
down cells like sleeping cells, segregation cells, medical cells, holding
cells, padded cells and so forth. Here again, security and safety
concerns first.
● Mr. Sweeney indicates that medical records are not available to correctional
personnel because of HIPPA regulations.
o Comment: While HIPPA regulations are clear about the confidentiality
of medical records everywhere to include jails, there are also provisions
10 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 11 of 17

104a

within HIPPA that allow for this information to be shared with
correctional administrators when it involves facility safety and secure
matters.
● Mr. Sweeney states that the staffing within the Clayton County Jail was
adequate.
o Comment: There are newspaper reports that the Sheriff’s Office was
sixty positions short, thirty-six of which were correctional officer in
nature. In addition, housing unit security personnel were moved around
to perform other jail functions during the very time of the Grochowski
assault – further proving that there were staff shortages within the
Clayton County Jail. Given the closed front door cells and small
windows, and a classification system that classified as compatible for
housing young detainees with a history of misdemeanor assault with
older detainees without any violent history, then staffing per housing
unit should be 3-4 guards with a floor rover continuously conducting
rounds. I would further emphasize that just because the Georgia
Sheriff’s Association did a staffing assessment does not mean it was
correct. Staffing plans should be done by an independent agency that is
not in corroboration with the Sheriff’s Office.
● Mr. Sweeney indicates that fights between cell mates represent only 15% of
inmate fights/assaults.
o Comment: If Mr. Sweeney is indicating that 15% is acceptable, I would
certainly disagree here. When I indicated that cell fights are common
between cell mates, I was not inferring that these fights represented a
high number like 15%, only that they were common. Zero percent is
the number as to which we should strive. Regular and frequent security
rounds, comprehensive and objective Classification systems that
consider the most important factor of assaultive versus non-assaultive
criminal history, and good line of sight monitoring of inmate housing
areas from the control center, whether visual or electronic, are the most
successful means to reduce assaults. Unfortunately, Clayton County
was deficient in each of these areas.
● Mr. Sweeney states, “Two inmates resided in this cell, and the double celling
of inmates who are classified as medium custody, general population, is the
accepted normal practice for jails nationally and in the state of Georgia.
11 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 12 of 17

105a

Everything else regarding staffing shortages and overcrowding numbers is
just subterfuge.”
o Comment: “Subterfuge.” Clayton County had a non-negotiable
responsibility to prevent this, whether through additional staffing, more
comprehensive classification, improved division of the jail facility
design to accommodate better inmate separation by classification
groups, or more frequent security rounds, to address proper security.
The failure of Clayton County to fulfill its duty resulted in Mr.
Grochowski’s death.
EDWARD SWEENEY FEBRUARY 13, 2018 DEPOSITION
● Mr. Sweeney stated that the Clayton Classification System was adequate. He
stated it was a Northpointe system. Mr. Sweeney said the classification tree
was an adequate form.
o Comment: The Clayton County Classification Form is antiquated,
inadequate and incomplete. For Brooks, it was not even completed
well. My comments above in response to the Sweeney Report about
classification issues, reflect my position here concerning the Sweeney
deposition testimony on this subject.
● Mr. Sweeney states that housing unit correctional officers do not or should
not have access to the criminal history of the inmate population.
o Comment: This statement is not true. If correctional staff have a
certification for NCIC access, they can access all of the criminal
history files. If correctional officers are not certified, they can get this
information from someone that is certified. Classification and housing
personnel have to have access to criminal history records in order to
make housing decisions and as a basis to counter the manipulation by
inmates’ under self-reporting of prior violence. The classification
process should include the opportunity of the classification officer to
use the criminal history as a check on an inmate’s denial of prior
assaultive behavior, which additionally reflects on the ability to trust
the inmate in other areas.

12 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 13 of 17

106a

● Mr. Sweeney states that correctional officers are capable of doing
classification and medical screening if medical staff are not available.
o Comment: Perhaps with the proper classification training, correctional
officers could perform the function of a classification officer, but only
with that specialized training. As for doing the medical screening, I
would question whether this is even remotely possible. Without the
specialized medical education of a nurse or a paramedic, it would be
impossible for any correctional officer to complete the medical
screening form. Further, without this medical education, these
correctional officers would not responsibly understand the
information they are being provided. Any agency that allowed the
medical screening to be performed by an untrained correctional
officer has set themselves up for extreme liability and certain tragedy.
● Mr. Sweeney states that classification information is not available to housing
unit correctional officers.
o Comment: This is not true. Correctional officers can and should be
able to access inmate files. With the Northpointe system that Mr.
Sweeney indicated was used by Clayton County, correctional staff
could access this information throughout the jail.
● Mr. Sweeney said that while double celling may foster fights, single celling
will increase suicides.
o Comment: Theses two important issues, preventing fights and suicides,
are independent and must be dealt with by objectively reasonable
responses posed to the unique problems posed by each. With adequate
medical and mental health service and good classification, suicidal
inmates should not go undetected and suicides certainly should not
increase because of housing assignments whether single or double cell.
A jail cannot avoid its duty to prevent in-cell assaults simply because
they have the duty of preventing suicides. A jail that pits one of these
duties against the other is exceptionally ill managed. Mr. Sweeney
appeared to be confusing single celling or single occupancy cells with
isolation or solitary confinement.

13 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 14 of 17

107a

● Mr. Sweeney expressed that age is not a crucial factor for correctional
classification systems. Further, he stated that only violent/non-violent and
sentenced/unsentenced status matters to a good classification system.
o Comment: Mr. Sweeney is again wrong. Age is an important and noted
stability factor in any objective classification system. When utilized
properly in the classification process, it can enhance the safety and
security of any correctional system. Violent, non-violent, sentenced,
unsentenced are of equal import, but they are only a part of a complete
objective classification system and should only be included as such.
Several authorities referenced above use age as a crucial classification
factor. My comments regarding classification issues in the Sweeney
Report also support my position herein concerning the Sweeney
deposition.
● Mr. Sweeney states that it was only a thirty-second fight. He said that he
determined this by walking through the report events, in his office with a stop
watch.
o Comment: Mr. Sweeney cannot make this time estimate with any
degree of accuracy. No one really knows how long the threatening or
assaultive behavior actually took place. Further, with continuous
observation one may have been able to notice unacceptable tension
between Brooks and Grochowski as of the first day of the cellassignment, based in part on my review of the video of Brooks.
● Mr. Sweeney said that the ACA Standards for Adult Correctional Institutions
4th Edition did not apply to the Clayton County Jail; only the ACA
Performance - Based Standards for Adult Local Detention Facilities 4th
Edition is applicable.
o Comment: This statement is neither true nor accurate. ACA publishes
over twenty different standards manuals and the provisions provided
within are interwoven with other standards. Simply because a standard
comes from one manual or another, may or may not make it applicable
to a specific facility. Typically, a jail would be accredited under Adult
Local Detention Facility (ALDF) Standards, and a Prison facility would
be accredited under Adult Correctional Institution (ACI) Standards.
The standards can be exactly the same, or differ only slightly. In the
14 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 15 of 17

108a

beginning, ACA offered only one set of Standards and as time passed
and correctional conditions were litigated, these Standards were
amended, changed and updated. To clarify – from the initial ACA
Standards, the Performance-Based Standards for Adult Detention
Facilities evolved, and then the Standards Supplement were added, and
during the same time frame, the simplified version of the Standards was
developed. These simplified Standards were titled CORE Jail
Standards. Regardless of the facility types, these standards all apply and
should be utilized. For objectively responsible correctional
administration, all of these standards are given full consideration. To
provide an example of this cross-over provisional consideration, it can
be specified that all of the performance-based standards are included in
the ACA Standards for Adult Correctional Institutions. Full
consideration of all ACA standards manuals should be given to ensure
total operational efficiencies.
● Mr. Sweeney implied that an inmate calling out for assistance was just as
effective to secure an officer’s attention as utilizing a call button. He added to
this statement by saying that if call buttons were inoperable or being ignored,
an inmate could always get the officer’s attention by just calling out.
o Comment: The Clayton County Jail is a podular design with three
separate glazing panels between the control center officer and the
inmate sleeping cells. For a roving officer, this separation could be as
few as one panel or as many as five. Only if the rover is within the same
pod, would it be even remotely possible for that officer to hear an
inmate calling out from a sleeping cell. These glazing panels are
designed for security control, but they are also provided for sound
dampering. The correctional floor plan for these housing unit pods
reveal these panels.
• Mr. Sweeney’s report implies that the NIC Jail Design Guide only requires
and only addresses observation from the guard tower of cell fronts, as opposed
to the interior of the cells.
o Comment: If I understood Mr. Sweeney’s deposition correctly he said
that he did not mean to imply that a proper jail design does not need to
consider the ability to observe in-cell from the guard tower or
elsewhere. If I am incorrect about his deposition testimony, Mr.
15 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 16 of 17

109a

Sweeney’s report focused on jail security as being only from the guard
tower to the front of the cell door and did not address the relevant
chapter on “Single Versus Multiple Occupancy” housing, section 4,
chapter 27, p. 305-310. National institute of Corrections (NIC) 2011
Jail Design Guide – Third Edition. This chapter and page 309 provides
as follows:
On balance, it seems that certain security and management
capabilities are compromised to attain the construction cost savings of
multiple-occupancy settings. Once compromised, these critical
capabilities may be lost for the life of the jail, which could exact a toll
on the jail staff and inmates.
Given the increased operational vulnerabilities of multipleoccupancy housing (with the exception of direct supervision
facilities), jurisdictions should evaluate whether initial construction
cost savings are merely expenses deferred until a later date.
Potentially, these savings may at some point be offset by higher
medical bills due to more frequent assaults, higher repair costs due to
increased damage to jail property, or unanticipated legal costs arising
as inmates or their families sue to recover damages as a consequence
of injuries received in the jail. Each jurisdiction must weigh the costs
of staffing and other issues before committing to multiple-occupancy
cells.
The chapter also provides:
“[Multiple-occupancy cells] greatly reduces the staff’s ability to
prevent physical or sexual assaults, especially during nighttime
lockdown or other times when staffing levels tend to be reduced. The
exception would be in direct supervision facilities where staff have a
continuous presence.”
“[Multiple-occupancy cells] increases tensions because inmates
have no place to which to retreat to ensure personal safety or personal
space and no place in which personal property can be completely
protected from theft or vandalism.”
“[Multiple-occupancy cells]causes inmates to completely forfeit
personal privacy because they may openly share toilet fixtures in close
quarters and no other area of the facility affords individual privacy.”

16 | Page

Case 1:14-cv-02586-TWT Document 150-2 Filed 05/18/18 Page 17 of 17

110a

111a
Amendment IV.
The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no warrants shall issue, but upon
probable cause, supported by oath or affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
Amendment VIII.
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.
Amendment XIV.
Section 1.
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the state wherein they reside. No state shall make
or enforce any law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.
Section 2.
Representatives shall be apportioned among the several states according to their
respective numbers, counting the whole number of persons in each state, excluding Indians not
taxed. But when the right to vote at any election for the choice of electors for President and Vice
President of the United States, Representatives in Congress, the executive and judicial officers of
a state, or the members of the legislature thereof, is denied to any of the male inhabitants of such
state, being twenty-one years of age, and citizens of the United States, or in any way abridged,
except for participation in rebellion, or other crime, the basis of representation therein shall be
reduced in the proportion which the number of such male citizens shall bear to the whole number
of male citizens twenty-one years of age in such state.
Section 3.
No person shall be a Senator or Representative in Congress, or elector of President and
Vice President, or hold any office, civil or military, under the United States, or under any state,
who, having previously taken an oath, as a member of Congress, or as an officer of the United
States, or as a member of any state legislature, or as an executive or judicial officer of any state,
to support the Constitution of the United States, shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the enemies thereof. But Congress may by a vote of
two-thirds of each House, remove such disability.
Section 4.
The validity of the public debt of the United States, authorized by law, including debts
incurred for payment of pensions and bounties for services in suppressing insurrection or
rebellion, shall not be questioned. But neither the United States nor any state shall assume or pay

112a
any debt or obligation incurred in aid of insurrection or rebellion against the United States, or
any claim for the loss or emancipation of any slave; but all such debts, obligations and claims
shall be held illegal and void.
Section 5.
The Congress shall have power to enforce, by appropriate legislation, the provisions of
this article.
42 U.S.C. § 1983.
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of this section, any Act of Congress
applicable exclusively to the District of Columbia shall be considered to be a statute of the
District of Columbia.

